No. 19In the

Supreme Court of the United States
KYLE BROOKS,
Petitioner,
v.
PEOPLE OF THE STATE OF COLORADO,
Respondent.

On Petition for a Writ of Certiorari to
the Supreme Court of Colorado

PETITION FOR A WRIT OF CERTIORARI
F. A ndrew Hessick
160 Ridge Road
Chapel Hill, NC 27599
(919) 962-4332

Richard A. Simpson
Counsel of Record
Wiley Rein LLP
1776 K Street, NW
Washington, DC 20006
(202) 719-7314
rsimpson@wiley.law

Jud Lohnes
Office of the Colorado
State Public Defender
1300 Broadway, Suite 300
Denver, CO 80203
(303) 764-6468
Counsel for Petitioner
292955

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Due process requires that a guilty plea be voluntary,
knowing, and intelligent. Here, the charging document
omitted an essential element of the crime. At the plea
hearing, the trial judge misinformed the defendant by
omitting the same element in his summary of the crime,
neither the prosecutor nor defense counsel corrected the
judge, there was no allocution, and defense counsel has
never said she informed the defendant privately about the
missing element. Was the plea valid?

ii
RULE 14(B) STATEMENT
The parties in the Colorado Supreme Court were Kyle
Brooks and the State of Colorado. The following is a list
of all directly related proceedings:
• Brooks v. People, No. 17SC614 (Colo.) (opinion issued
and judgment entered Sept. 9, 2019; modified on
denial of rehearing Sept. 23, 2019).
• People v. Brooks, No. 13CA1750 (Colo. App.)
(judgment entered June 15, 2017; application for
rehearing denied Aug. 3, 2017).
• People v. Brooks, No. 11CR1849 (Boulder Cty. Dist.
Ct.) (judgment entered Aug. 8, 2013).
• People v. Brooks, No. 09CR72 (Boulder Cty. Dist.
Ct.) (judgment entered July 23, 2010).
• People v. Brooks, No. 10CR716 (Boulder Cty. Dist.
Ct.) (judgment entered July 23, 2010).
• People v. Brooks, No. 10CR760 (Boulder Cty. Dist.
Ct.) (judgment entered July 23, 2010).
There are no additional proceedings in any court that
are directly related to this case.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
RULE 14(b) STATEMENT . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
PERTINENT CONSTITUTIONAL
AND STATUTORY PROVISIONS . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . 11
I.

The Colorado Supreme Court’s decision
conflicts with decisions of this Court . . . . . . . . . 11

II. T he de c i s ion b elow c on f l ic t s w it h
decisions by federal courts of appeals
and other state courts . . . . . . . . . . . . . . . . . . . . . 16

iv
Table of Contents
Page
A. The decision below conf licts with
decisions of the Second and Eighth
Circuits and of the Utah Supreme Court
holding that a plea is invalid where the
trial court fails to assure itself that the
defendant understands the elements
of the crime charged, notwithstanding
that defense counsel discussed the
charge with the defendant . . . . . . . . . . . . . . 16
B. The decision below conf licts with
a d e c i s i on o f t h e C on n e c t i c ut
Supreme Court holding that a court
m ay not pr e su me t h at defen se
counsel adequately informed the
defendant as to the elements of the
crime charged where the charging
document and trial court misstated the
elements of the offense  . . . . . . . . . . . . . . . . 20
III. The Colorado Supreme Cour t er red
in concluding that Brooks’s guilty plea
was valid  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
IV. The question presented is of exceptional
importance  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

v
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE SUPREME
COURT OF THE STATE OF COLORADO,
DATED SEPTEMBER 9, 2019, AS MODIFIED
SEPTEMBER 23, 2019 . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — OPINION OF THE COLORADO
COURT OF APPEALS, DIVISION TWO
DECIDED JUNE 15, 2017 . . . . . . . . . . . . . . . . . . . . 12a
APPENDIX C — EXCERPT OF TRANSCRIPT
OF THE DISTRICT COURT OF COLORADO,
BOULDER COUNTY, DATED AUGUST 8, 2013 . . 36a
APPENDIX D — MINUTE ORDER OF THE
DISTRICT COURT, BOULDER COUNTY,
STATE OF COLORADO, DATED JULY 8, 2013 . 41a
APPENDIX E — EXCERPT OF TRANSCRIPT
OF HEARING IN THE DISTRICT COURT
OF COLORA DO, BOULDER COUNT Y,
DATED JUNE 18, 2010 . . . . . . . . . . . . . . . . . . . . . . 46a
APPENDIX F — DENIAL OF REHEARING
OF THE COLORADO SUPREME COURT,
DATED SEPTEMBER 23, 2019 . . . . . . . . . . . . . . . 55a
APPENDIX G — DENIALS OF REHEARING
OF THE COLORADO COURT OF APPEALS,
DATED AUGUST 3, 2017 . . . . . . . . . . . . . . . . . . . . . 57a

vi
Table of Appendices
Page
APPENDIX H — RELEVANT COLORADO
REVISED STATUTES . . . . . . . . . . . . . . . . . . . . . . 59a
APPENDIX I — PLEA AGREEMENT . . . . . . . . . . 65a
APPENDIX J — MOTION TO THE COUNTY
COURT, BOULDER COUNTY, COLORADO,
FILED JUNE 17, 2010 . . . . . . . . . . . . . . . . . . . . . . . 84a
APPENDIX K — MOTION TO THE COUNTY
COURT, BOULDER COUNTY, COLORADO,
FILED JUNE 17, 2010 . . . . . . . . . . . . . . . . . . . . . . . 86a
A PPENDIX L — A MENDED CRIMINAL
INFORMATION, DATED JUNE 17, 2010 . . . . . . 88a
A PPENDIX M — ORIGINAL CRIMINAL
INFORMATION, DATED APRIL 17, 2010  . . . . . 89a

vii
TABLE OF CITED AUTHORITIES
Page
CASES
Boykin v. Alabama,
395 U.S. 238 (1969) . . . . . . . . . . . . . . . . . . . . . . . passim
Bradshaw v. Stumpf,
545 U.S. 175 (2005) . . . . . . . . . . . . . . . . . . . . . 11, 12, 24
Connecticut v. Childree,
454 A.2d 1274 (Conn. 1983)  . . . . . . . . . . . . . . . . . 21, 22
Henderson v. Morgan,
426 U.S. 637 (1976)  . . . . . . . . . . . . . . . . . . . . . . . passim
Hodges v. Easton,
106 U.S. 408 (1882)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Ivy v. Caspari,
173 F.3d 1136 (8th Cir. 1999)  . . . . . . . . . . . . . . . . 18, 19
Johnson v. Zerbst,
304 U.S. 458 (1938) . . . . . . . . . . . . . . . . . . . . . . . . 24, 28
Lacy v. Colorado,
775 P.2d 1 (Colo. 1989) . . . . . . . . . . . . . . . . . . . . . . . . . .8
Marshall v. Lonberger,
459 U.S. 422 (1983) . . . . . . . . . . . . . . . . . . . . . . . . 11, 28
McCarthy v. United States,
394 U.S. 459 (1969)  . . . . . . . . . . . . . . . . . . . . . . . . 11, 29

viii
Cited Authorities
Page
Morissette v. United States,
342 U.S. 246 (1952) . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
People v. Archuleta,
180 Colo. 156, 503 P.2d 346 (1972) . . . . . . . . . . . . . . . 14
People v. Brooks,
454 P.3d 270 (Colo. App. 2017) . . . . . . . . . . . . . . . . . . . 8
Smith v. O’Grady,
312 U.S. 329 (1941)  . . . . . . . . . . . . . . . . . . . . . . . . 11, 25
United States v. Blackwell,
199 F.3d 623 (2d Cir. 1999) . . . . . . . . . . . . . . .  17, 18, 19
United States v. Haymond,
__ U.S. __, 139 S. Ct. 2369 (2019) . . . . . . . . . . . . . . . 24
United States v. Repella,
359 F. App’x 294 (3d Cir. 2009)  . . . . . . . . . . . . . . . . . 18
United States v. Ruiz,
536 U.S. 622 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Utah v. Alexander,
279 P.3d 371 (Utah 2012)  . . . . . . . . . . . . . . . . . . . 19, 20
STATUTES AND OTHER AUTHORITIES
U.S. Const. amend. XIV, § 1 . . . . . . . . . . . . . . . . . . . . . . . 1

ix
Cited Authorities
Page
2 J. Story, Commentaries on the Constitution
§ 1779 (4th ed. 1873)  . . . . . . . . . . . . . . . . . . . . . . . . . . 24
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Colo. Rev. Stat. § 18-1.3-801(2)(a)(I) . . . . . . . . . . . . . . . . 7
Colo. Rev. Stat. § 18-4-401(1) . . . . . . . . . . . . . . . . 1, 3, 4, 5
Colo. Rev. Stat. § 18-4-401(5) . . . . . . . . . . . . . . . . . . . . . . 4
Colo. Rev. Stat. § 18-4-401(6) . . . . . . . . . . . . . . . . . . . . . . 5
Conn. Gen. Stat. § 53a-119(5) . . . . . . . . . . . . . . . . . . . . . 21
D epa rtment of Justice , B ureau of Justice
Statistics, Felony Sentences in State Courts,
2006 – Statistical Tables 9 (Dec. 2009) . . . . . . . . . 30
Fed. R. Crim. P. 11 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
J. Adams, Diary Entry (Feb. 12, 1771)  . . . . . . . . . . . . . 24
J o h n G r a m l i c h , O n l y 2 % o f Fe d e r a l
Cr iminal Defendants Go to Tr ial , and
Most W ho Do Are Foun d G uilty, P e w
Research Center (June 11, 2019) . . . . . . . . . . . .  29-30
Letter from Clarendon to W. Pym (Jan. 27, 1766),
1 Papers of John Adams 169 (R. Taylor ed. 1977) . . 23

x
Cited Authorities
Page
U.S. Courts , U.S. District Courts—Criminal
De fe n d a n t s D i s p o s e d of, b y Ty p e of
Disposition and Offense, During the 12-Month
Period Ending September 30, 2018  . . . . . . . . . . . . . 29

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Kyle Brooks respectfully submits this
petition for a writ of certiorari to review the judgment of
the Colorado Supreme Court.
OPINIONS BELOW
The decision of the Colorado Supreme Court is
reported at 448 P.3d 310 (Colo. 2019) and is reproduced
at Pet. App. 1a–11a. The decision of the Court of Appeals
is reported at 454 P.3d 270 (Colo. App. 2017) and is
reproduced at Pet. App. 12a–35a. The transcript of the
oral decision of the district court is reproduced at Pet.
App. 36a–40a.
JURISDICTION
The Colorado Supreme Court entered its judgment
on September 9, 2019 (Pet. App. 1a) and denied the
Petitioner’s timely application for rehearing on September
23, 2019 (Id.). Justice Sotomayor granted the Petitioner’s
timely application for an extension of time to file this
petition to February 20, 2020. This Court has jurisdiction
pursuant to 28 U.S.C. 1257(a).
PERTINENT CONSTITUTIONAL
AND STATUTORY PROVISIONS
The Fourteenth Amendment to the United States
Constitution provides in relevant part: “No state shall . . .
deprive any person of life, liberty, or property, without due
process of law . . . .” U.S. Const. amend. XIV, § 1.
The Colorado theft statute, Colorado Revised Statutes,
Section 18-4-401(1), is reproduced at Pet. App. 59a-64a.

2
STATEMENT OF THE CASE
The decision below arises from a habitual criminal
proceeding in which Brooks received an enhanced
sentence based on prior convictions. At that proceeding,
Brooks contested the validity of one of those prior
convictions, asserting that his guilty plea resulting in that
earlier conviction did not satisfy due process. Colorado
law permits Brooks to challenge the validity of his guilty
plea in this manner.
The essential facts and issue presented by the guilty
plea at issue are clear-cut and striking. Brooks pleaded
guilty to the crime of theft as part of his plea agreement.
The document charging Brooks with theft omitted an
essential element of the crime. The trial judge omitted
the same element in his summary of the charge at
Brooks’s plea hearing, and neither defense counsel nor
the prosecutor corrected the omission. Nothing in the
record affirmatively shows that Brooks was ever advised
of the missing element. The issue presented is whether, on
those facts, Brooks’s guilty plea satisfied the due process
requirement of being voluntary, knowing, and intelligent.
1. On April 17, 2010, the State of Colorado filed a
criminal complaint (the “Information”) charging Brooks
with the crime of robbery. Pet. App. 89a. Brooks thereafter
entered into an agreement to plead guilty to the lesser
crime of theft in exchange for a sentence of probation.1
Pet. App. 65a.
1. The Plea Agreement listed the minimum presumptive
range for this offense as one year with a maximum of six years
under exceptional circumstances. Pet. App. 79a.

3
This agreement was implemented within a 24-hour
period. On June 17, 2010, the State filed a motion to dismiss
the robbery charge and a motion to amend the Information
to add a charge of theft, in violation of Colorado Revised
Statutes Section 18-4-401(1). Pet. App. 84a–87a. The next
day, June 18, 2010, Brooks signed a document entitled “Plea
Agreement, Advisement Pursuant to Criminal Procedure
Rule 11 and Plea of Guilty” (the “Plea Agreement”),
and Brooks’s attorney signed a form document entitled
“Attorney Certificate to the Court.” Pet. App. 82a–83a.
That same day, the court held a plea hearing at which it
accepted the guilty plea (the “Plea Hearing”). Pet. App.
46a–54a.
Section 18-4-401(1) includes two distinct elements.
Specifically, the first element of the crime is that the
defendant “knowingly obtains . . . control over anything
of value of another without authorization or by threat or
deception.” In addition, the defendant must commit one
of five alternative second elements of the crime:
(a) Intends to depr ive the other person
permanently of the use or benefit of the thing
of value;
(b) Knowingly uses, conceals, or abandons the
thing of value in such manner as to deprive the
other person permanently of its use or benefit;
(c) Uses, conceals, or abandons the thing of
value intending that such use, concealment,
or abandonment will deprive the other person
permanently of its use or benefit;

4
(d) Demands any consideration to which he
or she is not legally entitled as a condition of
restoring the thing of value to the other person;
or
(e) Knowingly retains the thing of value more
than seventy-two hours after the agreed-upon
time of return in any lease or hire agreement.
Colo. Rev. Stat. § 18-4-401(1).
Here, the Information did not notify Brooks which of
the alternative second elements of the crime he allegedly
committed. The relevant charge stated in full:
That on or about April 17, 2010 in, or triable in,
the County of Boulder, State of Colorado KYLE
CHANCE BROOKS unlawfully, feloniously,
and knowingly took a thing of value, namely: a
purse, from the person of Whitney Sasha Weis;
in violation of section 18-4-401(1),(5), C.R.S. 2
Pet. App. 88a. The Information thus alleged that Brooks
knowingly obtained control over a thing of value of another
without permission, but it did not allege which of the five
alternative second elements of the crime he allegedly
committed. In fact, the Information did not even disclose
that there was a second element of the crime that the State
would be required to prove.
2. Colorado Revised Statutes Section 18-4-401(5) states that
“[t]heft from the person of another by means other than the use
of force, threat, or intimidation is a class 5 felony without regard
to the value of the thing taken.” Colo. Rev. Stat. § 18-4-401(5).

5
This omission of an element of the crime charged from
the Information was authorized by Section 18-4-401(6) of
the Colorado Revised Statutes, which provides that in an
information:
[I]t shall be sufficient to allege that, on or about
a day certain, the defendant committed the
crime of theft by unlawfully taking a thing or
things of value of a person or persons named in
the indictment or information. The prosecuting
attorney shall at the request of the defendant
provide a bill of particulars.
Colo. Rev. Stat. § 18-4-401(6). Counsel for Brooks never
made such a request and the State never provided any
bill of particulars.
Section 18-4-401(6) does not purport to address
what information a defendant must be provided before
the defendant can enter a voluntary, knowing, and
intelligent guilty plea. Here, the statute contributed to the
fundamental defects in Brooks’s guilty plea by permitting
the prosecutor to dispense with the usual practice of
identifying all of the elements of the crime in the charging
documents.
Brooks’s Plea Agreement likewise failed to identify
the missing element of the alleged crime. In particular,
the Plea Agreement did not specify which of the five
alternative second elements of Section 18-4-401(1) Brooks
allegedly committed, nor did it disclose that proof of a
second element was required. Pet. App. 65a–83a.

6
Before the Plea Hearing, defense counsel signed a
standard, generic form stating that she had “discussed the
facts and law applicable to this matter with the Defendant
including the necessary culpable mental state[.]” Pet.
App. 82a. But defense counsel has never stated that
she identified for Brooks the element missing from the
Information, and neither she nor the prosecutor ever put
anything on the record identifying the missing element. In
fact, there is not a word in the record reflecting that there
was in fact a second element of the crime. Defense counsel
has never said that she explained to Brooks in a private
conversation that the Information omitted an essential
element of the crime to which he was pleading guilty or
that she advised him of the true elements of the crime. 3
Nor did the trial judge advise Brooks of the second
essential element of theft. To the contrary, in explaining to
Brooks the elements of the crime charged, the trial judge
read from the Information and thereby misinformed
Brooks of the elements of the crime charged by omitting
any reference to the second element. Pet. App. 52a.
Neither defense counsel nor the prosecutor said anything
about the element missing from the Information and from
the trial judge’s summary. Instead, the Plea Hearing
continued with Brooks pleading guilty without a word in
the record about there even being a second element of the
crime. Pet. App. 52a–53a.
3. Notably, the State represented in proceedings below that
it intended to call defense counsel as a witness at the hearing as to
the validity of Brooks’s guilty plea, but did not do so. Pet. App. 42a.
This was despite the fact that the courts below held that Brooks
had made a prima facie case that his plea was constitutionally
invalid, which put the burden of proof on the State to overcome
that prima facie showing by proving that Brooks’s guilty plea was
nonetheless voluntary, knowing, and intelligent. Pet. App. 24a-25a.

7
We now know, from the briefing in this subsequent
habitual criminal proceeding, that the State contends that
the missing second element is that Brooks “intend[ed] to
deprive the other person permanently of the use or benefit
of the thing of value . . . .” However, the record in the
case in which Brooks pleaded guilty is silent as to which
necessary second element the State was charging, let
alone that Brooks was informed of that missing element.
The Plea Agreement exacerbated the problems
arising from the omissions in the Information and at
the Plea Hearing. The Plea Agreement included an
entire section about “culpability and accountability” that
informed Brooks that “[a] crime is committed when a
defendant has committed a voluntary act . . . accompanied
by a culpable mental state.” Pet. App. 66a. It then listed
what it described as four distinct culpable mental states
and detailed the difference between the culpable mental
state required for his crime—“intentionally”—and the one
it listed on his charging documents—“knowingly.” Pet.
App. 66a–67a. By highlighting the differences between
“knowingly” and “intentionally,” the Plea Agreement
reinforced the false impression that the State needed to
prove only that Brooks knew he was taking something of
value and did not need also to establish that he intended
to deprive the other person permanently of that thing.
2. In 2013, Brooks was convicted of witness tampering
in Colorado state court. Pet. App. 13a–14a. At sentencing,
the State sought to adjudicate Brooks as a habitual
criminal based on his three prior felony convictions—a
classification that would result in a mandatory minimum
sentence of twenty-four years of imprisonment. Colo. Rev.
Stat. § 18-1.3-801(2)(a)(I). One of the felony convictions
on which the State relied was the conviction for theft
pursuant to the 2010 guilty plea.

8
As permitted by Colorado law, see Lacy v. Colorado,
775 P.2d 1, 3–4 (Colo. 1989) (“A prior conviction obtained
in a constitutionally invalid manner cannot be used against
an accused in a subsequent criminal proceeding . . . to
increase punishment.”), Brooks challenged the reliance on
his 2010 conviction for theft, contending that the conviction
was constitutionally invalid. He argued that his guilty plea
was not made voluntarily, knowingly, and intelligently
because he had not been informed of the requisite element
of “intent to deprive permanently.”
The district court rejected this argument. The
court acknowledged that Brooks had not been advised
of the “intent to deprive permanently” requirement. It
confirmed that the Information misstated the elements
of theft by failing to include that element. Pet. App. 52a.
The district court also agreed that the judge who took the
2010 plea had misadvised Brooks of the elements of theft.
Pet. App. 37a. Nevertheless, the court held that Brooks
must have known of the “intent to deprive permanently”
requirement because he had pleaded guilty to theft “just a
year before” and that “the very nature” of the allegations
against Brooks “would advise Brooks that this theft was
one that involved an intent to permanently deprive.” Pet.
App. 40a.
The Colorado Court of Appeals affirmed. People v.
Brooks, 454 P.3d 270 (Colo. App. 2017). Pet. App. 12a–35a.
It acknowledged that both the Information and the trial
judge’s summary omitted an essential element of the crime
charged. Pet. App. 24a–25a. Nevertheless, the Court of
Appeals concluded that Brooks’s plea to the crime of theft
was voluntary, knowing, and intelligent, agreeing with
the trial court that “the very nature” of the allegations

9
“advise[d] Brooks . . . that this theft was one that involved
an intent to permanently deprive.” Pet. App. 25a.
The Colorado Supreme Court affirmed. It agreed
that the Information was deficient because it omitted the
“intent to deprive permanently” requirement. Pet. App.
9a. That court also recognized that the judge misstated
the elements of the offense at the Plea Hearing. Id. And it
held that Brooks had made a prima facie case that his plea
was constitutionally invalid. Pet. App. 11a. Nevertheless,
the court concluded that the State had met its burden of
showing that Brooks’s guilty plea was voluntary, knowing,
and intelligent. Id.
Unlike the trial court and the Court of Appeals, the
Colorado Supreme Court did not rely on the nature of the
allegations to conclude that Brooks must have known of
the intent requirement for theft. Instead, the court pointed
to three other considerations.
First, it stated that “theft is not an abstract concept”
and that its relative lack of complexity lowered the “level
of explanation required to demonstrate that Brooks
understood” the elements involved. Pet. App. 7a–8a.
Second, it concluded that Brooks must have known
of the intent requirement because he had pleaded
guilty in 2009 to a separate charge of the different
offense of misdemeanor theft. Pet. App. 10a. Although
acknowledging that the plea was to a different crime than
the one charged in 2010, the court stated the 2009 charge
had the “same specific intent to permanently deprive
element” as the theft charged in 2010. Id.

10
Third, the Colorado Supreme Court pointed to the
standard, generic form signed by defense counsel stating
that she had “discussed the facts and law applicable to
this matter with the Defendant including the necessary
culpable mental state[.]” Pet. App. 10a. According to the
court, despite the omission of a necessary element from
the Information and from the trial court’s summary of
the crime at the Plea Hearing, this form (signed before
the Plea Hearing) provided “written assurance . . . that
Brooks understood what he was pleading guilty to.” Id.
The Colorado Supreme Court reached this conclusion
notwithstanding that the form is a generic one, that
defense counsel never requested a bill of particulars,
that the State never identified on the record which of the
five alternative second elements it was alleging had been
committed, that defense counsel never stated that she had
corrected the omission from the Information, that defense
counsel and the prosecutor remained silent when the trial
judge misinformed Brooks as to the elements of the crime
charged, and that the State did not call defense counsel
as a witness at the hearing in the trial court regarding
the validity of Brooks’s guilty plea (contrary to its prior
representation that it would do so).4

4. Under the rationale of the Colorado Supreme Court’s
decision, a plea hearing would not be necessary at all, at least for
any defendant with a prior record charged with a purportedly
simple crime. The plea hearing did nothing whatsoever to support
the conclusion that Brooks received sufficient notice of the crime
charged to enter a valid guilty plea, and in fact did the opposite.
Brooks was given incomplete information and there was no
allocution.

11
Brooks filed a petition for rehearing. The Colorado
Supreme Court denied the petition. Belying its conclusion
that theft is “easily understandable to a layperson,” the
Colorado Supreme Court acknowledged in its denial of
rehearing that it had misstated the elements of theft
in its original opinion by omitting the first mens rea
requirement of the crime. It accordingly issued a modified
opinion correcting its error. Pet. App. 55-56a.
REASONS FOR GRANTING THE PETITION
I.

The Colorado Supreme Court’s decision conflicts
with decisions of this Court.

For a guilty plea to comport with due process, it must
be “voluntary” and constitute an “intelligent admission”
that the defendant committed the offense. Henderson
v. Morgan, 426 U.S. 637, 645 (1976); see also, e.g.,
Bradshaw v. Stumpf, 545 U.S. 175, 183 (2005) (“A guilty
plea . . . is valid only if done voluntarily, knowingly, and
intelligently”); United States v. Ruiz, 536 U.S. 622, 629
(2002) (“[T]he Constitution insists, among other things,
that the defendant enter a guilty plea that is ‘voluntary’”);
Boykin v. Alabama, 395 U.S. 238, 242 (1969). And, if a
guilty plea is not “voluntary and knowing, it has been
obtained in violation of due process and is therefore void.”
McCarthy v. United States, 394 U.S. 459, 466 (1969).
This Court has repeatedly stressed that a guilty plea
is knowing and intelligent only if the defendant receives
“real notice of the true nature of the charge against him.”
Marshall v. Lonberger, 459 U.S. 422, 436 (1983); accord
Smith v. O’Grady, 312 U.S. 329, 334 (1941). Providing
this notice is “the first and most universally recognized
requirement of due process.” Marshall, 459 U.S. at 436.

12
This Court has held that adequate notice requires that
the defendant be made aware of “the elements of the . . .
charge to which he pleaded guilty.” Bradshaw, 545 U.S.
at 182–83 (emphasis added); see also Henderson, 426 U.S.
at 645 (invalidating a plea because the defendant had not
been informed of the “elements of the offense”). “Where
a defendant pleads guilty to a crime without having been
informed of the crime’s elements, this standard is not met
and the plea is invalid.” Bradshaw, 545 U.S. at 183.
Because of the serious consequences of a guilty plea,
this Court has instructed that courts cannot presume
that a defendant enters a plea voluntarily, knowingly, and
intelligently. Boykin, 395 U.S. at 242. Instead, the record
must include “an affirmative showing that [the plea] was
intelligent and voluntary.” Id. Accordingly, a plea may
be valid if it is accompanied by “an explanation of the
charge by the trial judge,” Henderson, 426 U.S. at 647,
or if “the record accurately reflects that the nature of the
charge and the elements of the crime were explained to
the defendant by his own, competent counsel,” Bradshaw,
545 U.S. at 183. Likewise, this Court has suggested that
a plea may be voluntary and intelligent if the defendant
affirmatively expresses an understanding of the elements
of the charge at sentencing. See Henderson, 426 U.S. at
646. But if the record does not establish affirmatively that
the defendant was aware of and understood the elements
of the offense, the plea is invalid.
Applying these doctrines in Henderson v. Morgan,
this Court invalidated a guilty plea because the defendant
had not been made aware of the elements of the offense to
which he pleaded guilty. There, a defendant pleaded guilty
to second-degree murder “on the advice of his attorneys.”

13
Id. at 642. Although one of the elements of the offense was
an intent to cause the death of the victim, the indictment
did not include that element of intent. Id. Moreover, neither
“direct colloquy” with the presiding judge nor earlier
discussions with defendant’s lawyers referenced “the
requirement of intent to cause the death of the victim.”
Id. at 642–43. Nor was there a “factual statement or
admission” by the defendant “necessarily implying” that
he had the relevant intent. Id. at 646. Given these failures
to notify the defendant of the critical element of intent,
this Court held that the defendant’s guilty plea was not
voluntary and intelligent. Id.
The decision below in this case conflicts with these
precedents. Brooks pleaded guilty to the crime of theft.
As explained above, the Information charging Brooks with
theft did not specify which of the five alternative second
elements of the crime was being charged. Moreover, the
trial judge misinformed Brooks of the elements of the
crime charged by also omitting any reference to a second
element when she summarized the elements of the crime
at Brooks’s Plea Hearing. Pet. App. 37a. Neither the
prosecutor nor defense counsel corrected the omission.
Pet. App. 37a–40a. Instead they remained silent, thereby
appearing to confirm the trial judge’s erroneous statement
of the elements of the crime to which Brooks was pleading
guilty.
Nor is there anything in the record showing that
Brooks was informed of the particular provision— intent
to deprive the victim permanently of the stolen item—that
the State subsequently contended that Brooks violated.
Indeed, nothing in the record of the case in which Brooks
pleaded guilty makes any mention even of the existence
of a second element of the crime.

14
In other words, the record utterly fails to show that
Brooks was informed that there was an essential second
element of the crime to which he pleaded guilty, let alone
the specifics of that element. Thus, in this case, as in
Henderson v. Morgan, 426 U.S. 637 (1976), the defendant
was never advised of “an essential element of the offense.”
People v. Archuleta, 180 Colo. 156, 160, 503 P.2d 346, 347
(1972).
Nevertheless, the Colorado Supreme Court held that
Brooks must have been aware of the intent requirement
because theft is a “simple” crime and Brooks had been
previously convicted for theft. That inference is directly
contrary to this Court’s directive that the record must
contain “an affirmative showing” that the defendant
understands the offense to which he pleads, including
that the defendant has been advised of the elements of the
crime. Boykin, 395 U.S. at 242. And a crime can hardly be
said to be “simple” where the statute defining it includes
five alternative second elements. Indeed, as noted above,
the Colorado Supreme Court itself misstated the elements
of the crime in its original opinion in this case. Pet. App.
4a, 56a.
The Colorado Supreme Court also inferred that
Brooks was aware of the intent requirement because
defense counsel signed a standard, generic form document
stating that she “discussed the facts and law applicable to
this matter with [Brooks] including the necessary culpable
mental state[.]” Pet. App. 10a. Defense counsel signed this
standard form before the Plea Hearing. At that subsequent
hearing, neither she nor the prosecutor corrected the
omission of an essential element of the crime in both the
charging document and the trial judge’s summary of the
crime charged. Defense counsel has never stated that she

15
corrected in some private conversation with Brooks the
omissions in the charging document and in the judge’s
summary, and the State chose not to call defense counsel
as a witness at the hearing as to the validity of Brooks’s
guilty plea (contrary to its stated intent).
To be sure, this Court has suggested that a plea
may be valid if defense counsel informs the defendant
of the elements of the offense, and that it “may” even
“be appropriate to presume that in most cases defense
counsel routinely explain the nature of the offense in
sufficient detail to give the accused notice of what he
is being asked to admit.” Henderson, 426 U.S. at 647.
Here, however, the record establishes that Brooks was
affirmatively misinformed as to the elements of the
crimes to which he was pleading guilty. This Court has
never suggested that a statement by the judge at a plea
hearing misinforming a defendant as to the elements
of the crime charged may be disregarded based on the
assumption that defense counsel’s signature on a standard
form document must mean that she told the defendant
something different outside of court than he had been
told in court proceedings during which defense counsel
remained silent.
In short, the Colorado Court’s conclusion that
petitioner’s plea was constitutionally valid conflicts
with this Court’s precedents requiring that the record
affirmatively show that the defendant understood the
elements of the offense.

16
II. The decision below conflicts with decisions by
federal courts of appeals and other state courts.
This Court should also grant review because the
decision below conflicts with decisions of federal circuit
courts and other state supreme courts in two important
respects. First, the Colorado Supreme Court’s conclusion
that, even when the charging document and trial court do
not inform the defendant of the elements of an offense,
out-of-court information provided by defense counsel
suffices to make a plea knowing and voluntary conflicts
with decisions of the Second and Eighth Circuits and of
the Utah Supreme Court.
Second, the Colorado Supreme Court’s holding that
a court may presume from defense counsel’s attestation
of consultation with the defendant that the defendant
was adequately informed as to the elements of the crime
charged, notwithstanding that the charging document and
trial court misstated the elements of the offense, conflicts
with a decision of the Connecticut Supreme Court.
A.

The decision below conflicts with decisions of
the Second and Eighth Circuits and of the Utah
Supreme Court holding that a plea is invalid
where the trial court fails to assure itself
that the defendant understands the elements
of the crime charged, notwithstanding that
defense counsel discussed the charge with the
defendant.

The Second and Eighth Circuits and the Utah
Supreme Court have held that a guilty plea does not satisfy
the due process requirement that it be voluntary, knowing,

17
and intelligent if the trial court itself fails to assure that
the defendant understands the elements of the offense to
which the defendant pleaded. According to those courts,
such a plea is invalid even if defense counsel discusses the
charges with the defendant. If Brooks had challenged his
plea in those courts, his plea would have been vacated.
In United States v. Blackwell, 199 F.3d 623 (2d
Cir. 1999), the Second Circuit overturned a guilty plea
to conspiracy as not voluntary and intelligent because
the district court failed to ensure that the defendant
understood the elements of the offense. The Second
Circuit stated that the district court “did not itself explain
the elements of the conspiracy to [the defendant], nor
did it read the indictment to him[,]” and it “never asked
[the defendant] whether he understood the nature of the
offense to which he was entering a guilty plea.” Id. at
626. It also noted that the district court “did not ask the
defendant to describe his participation in the offense.” Id.
Although defense counsel informed the trial court that he
had explained the indictment to the defendant, the Second
Circuit stated that this representation was not sufficient.
Id. (“[Although the judge] was informed by [defendant’s]
attorney that he had explained the plea agreement and
the indictment[,] . . . . an attorney’s representation that
he explained a charge to the defendant is not enough to
demonstrate that the defendant understands the nature
of that charge.”). Therefore, the Second Circuit concluded,
the defendant’s plea was not “knowing, intelligent and
voluntary.”5 Id.
5. Although the Second Circuit also held that the district
court failed to satisfy Federal Rule of Criminal Procedure 11 in
taking the plea, it also concluded that the plea was invalid because

18
Similarly, in Ivy v. Caspari, 173 F.3d 1136 (8th Cir.
1999), the defendant pleaded guilty to felony murder
resulting from a death caused in the course of the
defendant’s perpetration of the felony of unlawful use of
a weapon. The Eighth Circuit held that the plea was not
valid because the trial court did not advise the defendant
of the requirement of intent to commit the underlying
felony and the defense counsel did not correct the oversight
at the plea hearing. Id. at 1143 (“Although the trial court
correctly stated that the law did not require the State
to prove that Ivy intended to kill his stepsister, it did
not advise Ivy that the State was required to prove that
Ivy intended to commit the underlying felony.”). In so
holding, the court did not inquire whether defense counsel
explained the elements to the defendant outside of court;
nor did it presume that defense counsel did so. Instead,
the Eighth Circuit stated that, because of the trial court’s
and counsel’s failure to advise the defendant of the intent
requirement, the plea “could not have been voluntarily
entered.” Id.
Under the approach of the Second and Eighth
Circuits, Brooks’s plea was was not voluntary, knowing
and intelligent.6 Like the trial courts in Blackwell and
it failed the constitutional requirement of being “knowing,
intelligent and voluntary.” Blackwell, 199 F.3d at 626.
6. There is also direct tension between the decision below
and the Third Circuit’s decision in United States v. Repella, 359
F. App’x 294, 296 (3d Cir. 2009), which was decided based on Rule
11, but which nonetheless evaluated whether a guilty plea was
voluntary, knowing, and intelligent. There, the court overturned
a guilty plea to defrauding a bank because the record did not
establish that the defendant understood that the crime required
“intent to defraud a bank.” Id. In so holding, the Court did not

19
Ivy, which failed to explain the elements of the crime to
which the defendants in those cases were pleading guilty,
the trial court here did not explain the elements of theft to
Brooks or otherwise ensure that Brooks understood the
elements of theft. Under Blackwell and Ivy, any auxiliary
discussions that Brooks might have had with his counsel
would not suffice to render his plea voluntary.
The decision below similarly conflicts with the Utah
Supreme Court’s decision in Utah v. Alexander, 279 P.3d
371 (Utah 2012). There, the defendant pleaded guilty to
burglary with intent to commit sexual battery. Although
the charging document alleged that the defendant had
“the intent to commit a sexual battery,” the Utah Supreme
Court concluded that the plea failed to satisfy due process
standards because the trial court did not discuss at the
plea hearing the element of “intent to commit sexual
battery.” Id. at 382–83. The court rejected the argument
that the defense counsel’s statement—that he reviewed
the charge with the defendant—adequately informed the
defendant of the intent requirement. Id. at 381. According
to the Utah Supreme Court, this statement established
only that defense counsel reviewed the allegations against
the defendant and “did not affirm on the record” that he
had explained the element of “intent to commit sexual
battery.” Id.
Like the trial court in Alexander, which did not
explain the intent element of the crime in that case, the
consider whether defense counsel discussed the elements outside
of court. It noted only that there was no evidence of a discussion
of the “intent to defraud a bank” in the indictment, plea-colloquy
transcript, or the pre-sentence report. Id.

20
trial court here did not explain the elements of theft to
Brooks or otherwise ensure that Brooks understood the
elements of theft. Nor did Brooks’s defense counsel affirm
on the record that she explained to Brooks the missing
second element of the crime charged.
Brooks’s defense counsel signed a standard, generic
form stating that she “discussed the facts and law
applicable to this matter with the Defendant including
the necessary culpable mental state[.]” Pet. App. 82a. But
nothing in that form states that defense counsel explained
to Brooks that the Information omitted a second essential
element of the crime, what that element was, and that
the State would be required also to prove the missing
second element beyond a reasonable doubt. And defense
counsel did not correct the trial judge when the judge
misinformed Brooks of the elements of the crime. The
record thus points strongly toward the conclusion that
Brooks was never told of the missing element.
Thus, the Colorado Supreme Court’s decision here
directly conflicts with the Utah Supreme Court’s decision
in Alexander.
B. The decision below conflicts with a decision
of the Connecticut Supreme Court holding
that a court may not presume that defense
counsel adequately informed the defendant as
to the elements of the crime charged where the
charging document and trial court misstated
the elements of the offense.
The decision below also conflicts with a decision of
the Connecticut Supreme Court, which has held that, if a
charging document misstates the law and the court does

21
not correct the misstatement, a court cannot presume
from an attestation that defense counsel discussed the
charge with the defendant that defense counsel corrected
that misstatement out of court.
In Connecticut v. Childree, 454 A.2d 1274 (Conn.
1983), the defendant pleaded guilty to larceny through
extortion, which makes it illegal to obtain property from
another through a threat to “[c]ause physical injury to
some person in the future[.]” Id. at 1279 (quoting Conn.
Gen. Stat. § 53a-119(5)). During the plea hearing, the trial
court described the offense by stating that it consists of
forcing someone to give up property by “instilling in him
a fear that, if the property is not delivered, that you will
cause him physical injury.” Id. at 1277.
The Connecticut Supreme Court concluded that this
description was inaccurate, because the phrase “will
cause him physical injury” could be interpreted to mean
certainty of causing physical harm, instead of possibly
causing physical harm in the future. Id. at 1279. Moreover,
the court stated that, because of the misstatement by
the trial court, it would be inappropriate to presume
that defense counsel adequately explained the charge
to the defendant outside of court. Id. at 1280. The court
also noted that the defendant did not make “any factual
statement or admission necessarily implying” that he
understood the element of the crime the trial court
had inaccurately described. Therefore, the Connecticut
Supreme Court concluded, the plea was not knowing and
voluntary.7 Id. at 1281.
7. The Connecticut Supreme Court also noted that the
defendant had raised a claim of ineffective assistance of counsel,
but expressly stated that it was not attempting to make “any

22
Like the trial court in Childree, which misstated the
elements of larceny by providing an inaccurate description
of the crime, the trial court here misstated the elements
of theft by omitting in its summary of the charge that
there was a second element that had been omitted from
the Information. At no time during the Plea Hearing did
the judge, defense counsel, or the prosecutor correct the
omission. And, like the defendant in Childree, Brooks
made no factual statement or admission showing that he
was aware of and understood the actual elements of the
crime.
In holding that Brooks’s plea was nevertheless
voluntary, knowing, and intelligent, the Colorado Supreme
Court did exactly what the Connecticut Supreme Court
held in Childree to be a violation of due process: namely,
it presumed from the form signed by defense counsel that
defense counsel adequately explained to Brooks outside of
court the correct elements of the offense, notwithstanding
that in court, the trial judge misinformed Brooks as to the
elements. As noted above, nothing in that form shows that
defense counsel explained to Brooks that the Information
left out an essential element of the crime charged and
that, in pleading guilty, he would be admitting to doing
something different from what the Information told him
were the elements of the crime charged. Moreover, defense
counsel’s subsequent failure to correct the same omission
at the plea hearing when the trial judge misinformed
Brooks as to the elements of the crime to which he was
pleading guilty vitiates any explanation that defense
counsel may have given beforehand.
judgment on the propriety of [that] claim . . . .” Childree, 454 A.2d
at 1280.

23
This Court should grant review to resolve these
conflicts between the decision of the Colorado Supreme
Court and decisions of other appellate courts. by
clarifying the circumstances under which out-of-court
discussions with defense counsel can render an otherwise
unconstitutional guilty plea valid.
III. The Colorado Supreme Court erred in concluding
that Brooks’s guilty plea was valid.
Review by this Court is also necessary to correct
the Colorado Supreme Court’s erroneous conclusion that
Brooks voluntarily, knowingly, and intelligently pleaded
guilty to theft in 2010.
A guilty plea results in the waiver of many important
constitutional rights, including the right against
compulsory self-incrimination; the right to a speedy,
public trial by jury; the right to have guilt proven beyond a
reasonable doubt; the right to call witnesses; and the right
to confront adverse witnesses. Boykin, 395 U.S. at 243.
Particularly important among these rights that are
waived is the right to a trial by jury. As a plurality of this
Court recently observed:
Together with the right to vote, those who wrote
our Constitution considered the right to trial by
jury “the heart and lungs, the mainspring and
the center wheel” of our liberties, without which
“the body must die; the watch must run down;
the government must become arbitrary.” Letter
from Clarendon to W. Pym (Jan. 27, 1766), in 1
Papers of John Adams 169 (R. Taylor ed. 1977).

24
Just as the right to vote sought to preserve
the people’s authority over their government’s
executive and legislative functions, the right
to a jury trial sought to preserve the people’s
authority over its judicial functions. J. Adams,
Diary Entry (Feb. 12, 1771), in 2 Diary and
Autobiography of John Adams 3 (L. Butterfield
ed. 1961); see also 2 J. Story, Commentaries on
the Constitution § 1779, pp. 540-541 (4th ed.
1873).
United States v. Haymond, __ U.S. __, 139 S. Ct. 2369,
2375, (2019).
Because of the critical importance of the rights
being waived by a guilty plea, courts must “indulge
ever y reasonable presumption against waiver of
fundamental constitutional rights” and should “not
presume acquiescence in the loss of fundamental rights.”
Johnson v. Zerbst, 304 U.S. 458, 464 (1938) (internal
quotation marks omitted); see also Hodges v. Easton, 106
U.S. 408, 412 (1882) (“It has been often said by this court
that the trial by jury is a fundamental guaranty of the
rights and liberties of the people. Consequently, every
reasonable presumption should be indulged against its
waiver.”). Thus, waivers of rights are invalid unless they
are made in a voluntary, knowing, and intelligent way.
Boykin, 395 U.S. at 242–44 (“[A] plea of guilty is more
than an admission of conduct; it is a conviction . . . . What
is at stake for an accused facing death or imprisonment
demands the utmost solicitude of which courts are
capable.”); see also Bradshaw, 545 U.S. at 183 (“A guilty
plea operates as a waiver of important rights, and is valid
only if done voluntarily, knowingly, and intelligently, with

25
sufficient awareness of the relevant circumstances and
likely consequences.”) (internal quotation marks omitted).
A plea can satisfy this voluntary, knowing, and
intelligent standard only if the defendant knows and
comprehends the charges against him. A plea cannot
be voluntary and intelligent if the defendant “has such
an incomplete understanding of the charge that his
plea cannot stand as an intelligent admission of guilt.”
Henderson, 426 U.S. at 645 n.13. A plea accordingly can
be valid only if the defendant receives “adequate notice of
the nature of the charge against him” or there is “proof
that he in fact understood the charge” against him. Id.; see
also Smith, 312 U.S. at 334 (stating that providing “real
notice of the true nature of the charge” is “the first and
most universally recognized requirement of due process”).
Under these principles, Brooks’s plea does not
come close to meeting the standard for being voluntary,
knowing, and intelligent. Notice of the elements of the
crime charged is the starting point for a defendant’s ability
to determine whether to plead guilty. As explained above,
the Information omitted the second essential element of
the crime charged, the State never specified which of five
alternative second elements of the crime it was charging,
the trial judge omitted the second element of the crime in
his summary at the Plea Hearing, neither defense counsel
nor the prosecutor corrected the trial judge’s omission,
and there was no allocution or other statement by Brooks
showing that he understood both elements of the crime
charged.
As detailed above, defense counsel also did not state
in the generic form she signed (or anywhere else in the

26
record) that she recognized that the Information omitted
an essential element, let alone that she privately informed
Brooks that the crime charged included an additional
element not included in the Information, and that by
pleading guilty, he would be admitting to that additional
element. Nor did defense counsel do anything to correct
the record by pointing out the omission in the Information.
Moreover, after signing the form, defense counsel
participated in the Plea Hearing at which the trial judge
repeated the error in the Information by omitting the
“intent to deprive permanently” element in his summary
of the crime charged. Neither defense counsel nor the
prosecutor corrected the omission on the record. Instead,
Brooks proceeded to plead guilty without a word on the
record regarding one essential element of the crime.
A generic form such as the one defense counsel signed
here might carry some weight in the context of a record
reflecting a legally correct charging instrument and a plea
hearing at which the elements of the crime charged were
not affirmatively misstated. Here, however, it is a woefully
inadequate basis on which to conclude that Brooks was
advised of the elements of the crime with which he was
charged and voluntarily, knowingly, and intelligently
pleaded guilty.
To reach that conclusion, one would have to assume
that defense counsel identified the omission in the
Information, consulted with the prosecutor to confirm
which of the five alternative second elements was being
charged (notwithstanding not serving a formal request
for a bill of particulars), informed Brooks before the
Plea Hearing that the Information omitted an essential

27
element of the crime, and explained the missing element
to Brooks before the Plea Hearing. One would then need
further to assume that defense counsel nonetheless did
not put the second element on the record, participated in a
subsequent Plea Hearing at which the trial judge repeated
the omission in the Information, and, knowing the judge
had made a mistake by omitting an element of the crime,
remained silent.
Thus, the inference on which the Colorado Supreme
Court based its decision requires extremely counterintuitive
speculation about what happened entirely off the record.
It is hardly sufficient to satisfy the requisite affirmative
showing on the record that Brooks was informed of the
elements of the crime to which he was pleading guilty.
Moreover, even assuming against all odds that counsel
privately informed Brooks of the missing element before
the Plea Hearing, that private advice (nowhere confirmed
in the record) could not salvage the plea here. The trial
judge herself directly contradicted any such advice
by misinforming Brooks as to the elements of crime
charged at the Plea Hearing, with defense counsel (and
the prosecutor) remaining silent. Regardless of what
defense counsel may have said to her client privately,
it simply cannot be that a plea can be found to be valid
where the record in the case shows that the defendant
was misinformed as to the elements of the crime charged
both in the charging document and by the trial judge, all
with neither defense counsel nor the prosecutor correcting
the record.
In concluding that Brooks’s plea was valid, the
Colorado Supreme Court also reasoned that Brooks must

28
have known the mens rea requirement because it is obvious
from the “simple” nature of the offense. Pet. App. 7a–8a. 8
This reasoning turns the law of waiver on its head. Courts
should not assume that a defendant has waived his rights.
To the contrary, courts must “indulge every reasonable
presumption against waiver of fundamental constitutional
rights.” Johnson, 304 U.S. at 464. A plea is valid only if
evidence in the record affirmatively establishes that the
defendant was informed of, or understood, the elements
of the offense. Henderson, 426 U.S. at 645–46.
Assuming the defendant knows about and understands
the mens rea requirement of a crime, as the Colorado
Supreme Court did, is particularly inappropriate. As this
Court has recognized, mens rea is the crucial feature
that distinguishes many lawful acts from unlawful acts.
Morissette v. United States, 342 U.S. 246, 251 (1952).
Permitting the government to assume mens rea would
provide an avenue for the government impermissibly to
shift the burden onto the defendant to prove his innocence.
Consistent with this understanding, in Henderson, this
Court held that the failure to inform the defendant of the
mens rea of intent to establish second-degree murder
rendered the plea to that offense invalid. 426 U.S. at 647
n.18.
8. This Court has said it will not second-guess credibility
determinations about whether defense counsel informed
defendant of the elements of a charge. Marshall, 459 U.S. at 435.
But the Colorado Supreme Court did not make any credibility
determinations. Indeed, it could not make any credibility
determination because the State did not call defense counsel
as a witness after representing that it would do so. Instead,
the Colorado Supreme Court held that it would assume Brooks
understood the elements, even if defense counsel did not discuss
them with him. Pet. App. 10a–11a.

29
The Colorado Supreme Court erred in holding that
a guilty plea can be voluntary, knowing, and intelligent
where the record does not include the actual elements
of the crime charged and there is no clear statement by
defense counsel that she corrected the omission. Review
is warranted to correct this critically important error.
IV. The question presented is of exceptional importance.
This Court should also grant review because the
question in this case frequently arises and has a significant
effect on the outcome of criminal cases. In 2018, nearly
80,000 people were defendants in federal criminal cases.
U.S. Courts, U.S. District Courts—Criminal Defendants
Disposed of, by Type of Disposition and Offense, During
the 12-Month Period Ending September 30, 2018, https://
www.uscourts.gov/sites/default/files/data_tables/jb_
d4_0930.2018.pdf. Of those cases, 71,550, or almost 90%,
resulted in guilty pleas. Id.9 And while this Court has long
noted the predominance of pleas in the criminal justice
system, see, e.g., McCarthy, 394 U.S. at 463 n.7 (1969)
(citing statistics that 86% of all convictions in the U.S.
district courts in 1968 were the result of either a guilty
or nolo contendere plea), the rate at which defendants
choose to go to trial continues to decline. From 1998 to
2018, the number of federal criminal trials fell by more
than half. John Gramlich, Only 2% of Federal Criminal
Defendants Go to Trial, and Most Who Do Are Found
Guilty, Pew Research Center (June 11, 2019), https://
9. This number actually understates the proportion of guilty
pleas. The vast majority of cases—6,275, to be precise—that did
not result in guilty pleas were dismissed by the prosecutor. Thus,
of the cases in which the prosecutor decided to proceed, 97%
resulted in guilty pleas.

30
www.pewresearch.org/fact-tank/2019/06/11/only-2-offederal-criminal-defendants-go-to-trial-and-most-whodo-are-found-guilty/. Of the 79,704 federal criminal cases
in 2018, only 1,879, or just over 2%, went to trial. Id.
These federal guilty pleas are but a small sliver of
the total guilty pleas entered each year. State courts
handle considerably more criminal cases than the federal
system. In 2006, for example, an estimated 1,132,290
felony convictions took place in state courts—compared
to an estimated 72,983 in federal courts that year.
Department of Justice, Bureau of Justice Statistics,
Felony Sentences in State Courts, 2006 – Statistical
Tables 9 (Dec. 2009), https://www.bjs.gov/content/pub/
pdf/fssc06st.pdf. Although aggregate metrics are not
readily available, courts in many states proceed to trial at
rates lower than or at least similar to that of the federal
courts. In 2017, the jury trial rate across 22 states for
which data was available was lower than 3%. Gramlich,
https://www.pewresearch.org/fact-tank/2019/06/11/only2-of-federal-criminal-defendants-go-to-trial-and-mostwho-do-are-found-guilty/. These jurisdictions include
Texas (only 0.86% went to trial), Pennsylvania (1.11%),
California (1.25%), Ohio (1.27%), Florida (1.53%), North
Carolina (1.66%), Michigan (2.12%), and New York (2.91%).
Id.
In light of these statistics, it is not a stretch to say
that state courts may take over one million guilty pleas
each year.
The sheer volume of criminal cases demands that
prosecutors, defense attorneys, and courts resolve cases
quickly. It is for this reason that states have adopted

31
standardized forms and other procedures to secure
guilty pleas expeditiously. But the pressure to resolve
criminal cases quickly inevitably results in errors of the
sort Brooks faced in this case. Despite their best efforts,
many judges and attorneys occasionally err in describing
the charges to defendants, and those defendants enter
guilty pleas without knowing precisely to what charges
they are pleading guilty.
It is therefore critical for this Court to clarify the
minimal procedures necessary to ensure that a guilty plea
is voluntary, knowing, and intelligent, and, in particular,
when errors in charging instruments and in plea colloquies
render a plea constitutionally invalid.
CONCLUSION
The decision below held that Brooks’s guilty plea was
voluntary, knowing, and intelligent based on inferences
and speculation as to what Brooks must have known
outside of the record. That decision conflicts with the
core due process principles articulated in decisions of this
Court, conflicts with decisions of federal courts of appeals
and other state supreme courts, is erroneous, and presents
an issue of exceptional importance.
Due process requires, at a minimum, that the record
reflect somewhere that all the elements of the crime
charged were identified and explained to the defendant.
The principles articulated by this Court demand a bright
line rule: a guilty plea cannot stand where the record
nowhere identifies the elements of the crime charged, no
matter how simple the crime and no matter how easy it
may be to speculate that the defendant “must have” known
the elements because the crime charged is a simple one.

32
A different rule would get it exactly backwards. One
of the core values of the Due Process Clause is to protect
against unjust imprisonment by assuring that a defendant
has notice of the charges against him, and understands
those charges, before the defendant waives important
constitutional rights by pleading guilty. Permitting guilty
pleas based on “must have known” inferences is a slippery
slope, especially in the context of the pressures of a
modern-day criminal justice system to make “quick and
dirty” plea deals the norm. It asks little of the government
and the courts to assure that the record affirmatively show
the elements of the crime charged and that the defendant
received notice of the elements and understood them.
This case presents an ideal vehicle for the Court
to clarify what due process requires, at a minimum, to
assure that guilty pleas are in fact voluntary, knowing,
and intelligent.
Accordingly, the petition for a writ of certiorari should
be granted.

33
Respectfully submitted,
F. A ndrew Hessick
Richard A. Simpson
160 Ridge Road
Counsel of Record
Chapel Hill, NC 27599
Wiley Rein LLP
(919) 962-4332
1776 K Street, NW
Washington, DC 20006
Jud Lohnes
(202) 719-7314
Office of the Colorado
rsimpson@wiley.law
State Public Defender
1300 Broadway, Suite 300
Denver, CO 80203
(303) 764-6468
Counsel for Petitioner
February 20, 2020

APPENDIX

1a
A
Appendix Appendix
A — opinion
of the
supreme court of the state of
colorado, dated september 9, 2019,
AS modified september 23, 2019
THE Supreme Court
of THE STATE OF Colorado
2 east 14th avenue,
Denver, Colorado 80203
2019 CO 75M
Supreme Court Case No. 17SC614
Certiorari to the Colorado Court of Appeals
Court of Appeals Case No. 13CA1750
Kyle Brooks,
Petitioner,
v.
The People of the State of Colorado,
Respondent.
Judgment Affirmed
en banc
September 9, 2019
Opinion modified, and as modified, petition for
rehearing DENIED. EN BANC.
September 23, 2019

2a
Appendix A
JUSTICE BOATRIGHT delivered the Opinion of the
Court.
After a jury found Kyle Brooks guilty of two felonies,
the trial court adjudicated him to be a habitual criminal
based on his prior felony convictions, including his
guilty plea to theft from a person. As a result, the court
sentenced him to twenty-four years in prison. Brooks
now claims that his prior theft from a person conviction is
constitutionally invalid. Therefore, we must determine if
the record establishes by a preponderance of the evidence
whether Brooks understood the elements of theft from a
person when he previously pleaded guilty. We conclude
that it does. Accordingly, we hold that Brooks’s prior
guilty plea to theft from a person was constitutionally
valid, and we affirm the judgment of the court of appeals
on different grounds.
I. Facts and Procedural History
Brooks was convicted of two class 4 felony counts
for victim tampering. The prosecution also sought to
adjudicate Brooks a habitual criminal under section
18-1.3-801, C.R.S. (2019), based on Brooks’s three prior
felony convictions. Brooks, however, asserts that one of
those convictions, a 2010 theft conviction obtained through
a guilty plea, is constitutionally invalid. Therefore, we need
to examine the circumstances surrounding his guilty plea
in that case.
In the 2010 case, the People charged Brooks with theft
from a person after he and an accomplice stole a purse;

3a
Appendix A
Brooks distracted the victim while his accomplice grabbed
the purse. Brooks pleaded guilty and waived a factual
basis for the crime. But both the charging document
and the Rule 11 Advisement form failed to include the
requisite mens rea for theft from a person: the intent to
permanently deprive the victim of property. Additionally,
the trial court did not mention the specific intent element
when accepting Brooks’s plea. The Rule 11 form, however,
did include defense counsel’s signed certification to the
court that she had “discussed the facts and law applicable
to this matter with [Brooks] including the necessary
culpable mental state, possible defense(s), and potential
penalties.” (Emphasis added.)
During the habitual criminal hearing in the present
case, Brooks argued that his 2010 theft conviction was
constitutionally invalid and it could not serve as a predicate
felony for his habitual criminal adjudication. Specifically,
he argued that at the time he entered his guilty plea, he
had not been informed that theft from a person requires
the specific intent to permanently deprive the victim of
property. The trial court here disagreed and instead
found that Brooks understood what he was pleading
guilty to in the 2010 case based on the following: (1) he
was represented by competent counsel; (2) he asserted
that he understood what he was pleading guilty to; (3) he
had previously pleaded guilty to misdemeanor theft; and
(4) the nature of the crime itself.
The court of appeals affirmed Brooks’s habitual
criminal sentence, concluding that the facts of the
crime as alleged would have informed Brooks that the

4a
Appendix A
particular theft in question was one where he intended
to permanently deprive the victim of property. People v.
Brooks, 2017 COA 80, ¶ 40,
P.3d . Brooks then filed
a petition for certiorari review, and we granted review of
three issues.1
II. Standard of Review
The constitutional validity of a guilty plea is a question
of law that we review de novo. Sanchez-Martinez v. People,
250 P.3d 1248, 1254 (Colo. 2011). But we defer to a trial
court’s findings of fact unless they are unsupported by
the record. Id.

1. We granted certiorari to review the following issues:
1.

Whether a defendant enters a constitutionally valid
guilty plea where the charging document omits the
specific intent element of the crime, the trial court
recites the defective charging document during its
elemental advisement, and defense counsel never
advised the defendant of the mens rea element.

2.

Whether, when the trial court fails to advise the
defendant of a critical element of the crime to which
he pleads guilty, knowledge of the omitted element
may be imputed to the defendant based on [the]
“nature of the underlying crime.”

3.

Whether, when the trial court fails to advise the
defendant of the specific intent element of the charge
to which he pleads guilty, the error is susceptible
to review under the constitutional harmless error
standard.

5a
Appendix A
III. Analysis
To determine whether Brooks’s guilty plea was valid,
we first discuss the requirements of a constitutionally
valid guilty plea, including the need to establish that the
defendant understood the crime to which he pleaded guilty.
Next, we clarify that, to ensure a defendant understands
what he is pleading guilty to, a trial court should explain
the crime to a degree commensurate with the nature and
complexity of that crime. Then, we examine the record to
determine if it demonstrates by a preponderance of the
evidence that Brooks understood the charge of theft from
a person when he pleaded guilty, and we conclude that it
does. Therefore, we hold that Brooks’s prior guilty plea
for theft from a person was constitutionally valid.
A. Law
A guilty plea is constitutionally valid when it has
been made “voluntarily, knowingly, and intelligently.”
Bradshaw v. Stumpf, 545 U.S. 175, 183, 125 S. Ct. 2398,
162 L. Ed. 2d 143 (2005) (citing Brady v. United States,
397 U.S. 742, 748, 90 S. Ct. 1463, 25 L. Ed. 2d 747 (1970)).
To demonstrate that a plea is constitutionally valid,
“the record [must] affirmatively show the defendant’s
understanding of the critical elements of the crime to
which the plea is tendered.” Watkins v. People, 655 P.2d
834, 837 (Colo. 1982). The relevant mens rea is a critical
element of the crime. See id. at 838 (listing specific intent
as a critical element). If a defendant wishes to challenge
the constitutional validity of a guilty plea, he “must
make a prima facie showing that the guilty plea was

6a
Appendix A
unconstitutionally obtained.” Lacy v. People, 775 P.2d
1, 6 (Colo. 1989). If the defense makes this prima facie
showing, then the prosecution can rebut it by establishing
“by a preponderance of the evidence that the conviction
was obtained” constitutionally. Id. at 6-7.
W hen eva lu at i ng whet her a conv ic t ion w a s
constitutionally obtained, we note that “no particular
litany need be followed in accepting a tendered plea of
guilty” and that “the degree of explanation that a court
should provide depends on the nature and complexity
of the crime.” Id. at 6. We have previously provided
guidance on which types of crimes are relatively complex
and which are relatively easy to understand. See id.
(explaining that aggravated robbery and second-degree
murder are “understandable by persons of ordinary
intelligence,” whereas crimes such as conspiracy to
commit burglary “require a greater showing of the
defendant’s understanding”). Therefore, what is necessary
to establish a defendant’s understanding of the charge
against him depends on the crime’s complexity.
B. Application
Brooks contends that he did not understand that
he needed to have the specific intent to permanently
deprive the victim of her property when it was taken.
Brooks asserts that, without that understanding, his
plea is constitutionally invalid. To determine Brooks’s
understanding of the charges against him, we look at
the record as a whole and focus on five aspects. First, we
consider the nature of the offense to which he pleaded

7a
Appendix A
guilty to see how difficult it is to understand the elements
of the crime charged. Second, we review the charging
document to see if it properly advised Brooks of the charge
he was facing. Third, we examine how the court advised
Brooks during the plea hearing. Fourth, we consider
Brooks’s prior experience with the criminal justice
system. Parke v. Raley, 506 U.S. 20, 36-37, 113 S. Ct. 517,
121 L. Ed. 2d 391 (1992). Finally, because Brooks was
represented by competent counsel, we factor in defense
counsel’s “assurance that the defendant has been properly
informed of the nature and elements of the charge to which
he is pleading guilty.” Bradshaw, 545 U.S. at 183.
First, theft is not an abstract concept. People steal
property because they want to keep, use, or sell it. Thus,
the intent to permanently deprive the victim of property
is not difficult to understand because keeping the stolen
property serves as the motivation for taking the item in
the first place. We have previously concluded that crimes
such as second-degree murder and aggravated robbery
are easily understandable by a layperson, see Lacy, 775
P.2d at 6, and require less of a showing to establish that
the defendant understood the charge to which he pleaded
guilty. Certainly, theft falls safely within the sphere of
those crimes, and can be readily contrasted with more
complicated crimes like conspiracy to commit burglary. 2
2. As an illustration, consider the elements of theft and the
elements of conspiracy to commit burglary, side by side. Upon doing
so, it is clear that the elements of theft are relatively simple, whereas
the elements of conspiracy to commit burglary are more complicated
and, in addition, also require a defendant to understand the elements
of burglary itself:

8a
Appendix A
Because we conclude that the crime of theft from a person
is relatively simple, the level of explanation required to
demonstrate that Brooks understood what he was pleading
guilty to is relatively low.
Second, the charging document in this case was
deficient because it omitted the specific intent element of
theft from a person:
Theft

Conspiracy to Commit
Burglary

1. That the defendant,

1. That the defendant,

2. In the State of Colorado, at
or about the date and place
charged,

2. In the State of Colorado, at
or about the date and place
charged,

3. Knowingly,

3. With the intent to promote
or facilitate the commission
of the crime of burglary,

4. Obtained, retained, or
exercised control over
anything of value of another,

4. Agreed with another person
or persons that they, or one or
more of them, would engage
in conduct which constituted
the crime of burglary or an
attempt to commit the crime of
burglary, and

5. Without authorization or by
threat or deception, and

5. The defendant, or a coconspirator, performed
an overt act to pursue the
conspiracy.
COLJI-Crim. G2:05 (2018).

6. Intended to deprive the
other person permanently of
the use or benefit of the thing
of value.
COLJI-Crim. 4-4:01 (2018).

9a
Appendix A
COUNT 2-THEFT FROM A PERSON (F5)
That on or about April 17, 2010 in, or triable in,
the County of Boulder, State of Colorado KYLE
CHANCE BROOKS unlawfully, feloniously,
and knowingly took a thing of value, namely:
a purse, from the person of [the victim]; in
violation of section 18-4-401(1), (5), C.R.S.
Because of the lack of the specific intent element, we find
that the charging document failed to properly inform
Brooks of all critical elements of the charge.
Third, the trial court advised Brooks in the same
manner as the charging document and did not mention
the specific intent element. During the plea hearing, the
trial court read the charge verbatim from the charging
document:
How do you plead with respect to that added
Count 2 which charges on or about April 17,
2010, in or triable in the county of Boulder, state
of Colorado, you unlawfully, feloniously, and
knowingly took a thing of value, namely a purse,
from the person of [the victim] in violation of
section 18-4-401(1), (5), C.R.S.?
Because the court’s advisement suffered from the same
flaw as the charging document, we find that it too failed
to inform Brooks of the critical element of specific intent
to permanently deprive the victim of property.

10a
Appendix A
Fourth, we rely on Brooks’s prior experiences with
the criminal justice system to evaluate his understanding
of his guilty plea to theft from a person; in particular, we
consider his previous guilty plea for misdemeanor theft.
The trial court found that Brooks pleaded guilty to theft
just a year before his 2010 guilty plea, and even though
that theft was a misdemeanor, it had the same “specific
intent to permanently deprive” element as theft from
a person. See § 18-4-401(1)(a), (5), C.R.S. (2019). At the
time he entered that guilty plea, Brooks was properly
advised—and he acknowledged that he understood—
that he needed to have the specific intent to permanently
deprive the victim of the property taken to be guilty of
misdemeanor theft. He did not express any confusion or
challenge that he had the specific intent to permanently
deprive the victim of property in the 2009 guilty plea.
Finally, the trial court here expressly found that
Brooks was represented by competent counsel in the 2010
case, and Brooks stated on the record in 2010 that defense
counsel discussed the Rule 11 advisement form with him,
and that he understood the charge to which he pleaded
guilty. That form, which Brooks and defense counsel both
signed, stated that defense counsel “discussed the facts
and law applicable to this matter with [Brooks] including
the necessary culpable mental state, possible defense(s),
and potential penalties.” (Emphasis added.) Because
we have written assurance from competent counsel
that Brooks understood what he was pleading guilty
to, we rely on it in determining whether Brooks made a
knowing, intelligent, and voluntary plea in accordance
with constitutional principles.

11a
Appendix A
In considering the record as a whole, we agree with
Brooks that he made a prima facie showing that his theft
from a person charge was constitutionally invalid, but we
conclude by a preponderance of the evidence that Brooks
understood the elements of the crime to which he pleaded
guilty. When taken together, the relatively simple nature
of the crime of theft from a person, Brooks’s guilty plea
to misdemeanor theft just a year earlier, and defense
counsel’s written assurance that she explained to him
the mens rea required to commit the offense, convince
us that Brooks understood what he was pleading guilty
to at the time he entered his plea. Accordingly, we hold
that Brooks’s prior guilty plea for theft from a person was
constitutionally valid.
IV. Conclusion
We vacate the opinion of the court of appeals and
affirm the judgment on different grounds.

12a
AppendixOF
B THE COLORADO
APPENDIX B — OPINION
COURT OF APPEALS, DIVISION TWO
DECIDED JUNE 15, 2017
COLORADO COURT OF APPEALS,
DIVISION TWO
Court of Appeals
No. 13CA1750
THE PEOPLE OF THE STATE OF COLORADO,
Plaintiff-Appellee,
v.
KYLE BROOKS,
Defendant-Appellant.
Opinion by JUDGE BERGER.
Dailey and J. Jones, JJ., concur.
June 15, 2017, Decided
JUDGMENT AND SENTENCE AFFIRMED
A jury convicted defendant, Kyle Brooks, of eight
substantive offenses, including two counts of tampering
with a witness or victim. The district court adjudicated
Brooks a habitual criminal under section 18-1.3-801(2),
C.R.S. 2016, and imposed a statutorily mandated sentence
of twenty-four years’ imprisonment.

13a
Appendix B
Brooks appeals, claiming that (1) there was insufficient
evidence to support one of his convictions of tampering
with a witness or victim; (2) in adjudicating him a habitual
criminal, the district court improperly took judicial notice
of material in court files; (3) his guilty plea in one of the
underlying convictions on the habitual criminal charges
was constitutionally invalid, thus voiding his habitual
criminal conviction; and (4) the court erred in concluding
that his sentence was not disproportionate and in failing
to conduct an extended proportionality review of his
sentence. Because we hold as a matter of first impression
that the tampering with a witness or victim statute does
not require that the “attempt” to tamper actually be
communicated to the victim or witness, we reject Brooks’
sufficiency argument. We also reject his other contentions
and affirm the judgment and sentence.
I.

Relevant Facts and Procedural History

Brooks discovered that his girlfriend was pregnant
with another man’s child, argued with her, and then
assaulted her. A bystander called the police. Before the
police arrived, Brooks fled.
The police planned to arrest Brooks when he appeared
for an unrelated court appearance. When officers
contacted Brooks at the courthouse, he resisted arrest
and struggled with them. The officers restrained and
arrested him.
While in jail, Brooks repeatedly telephoned his
girlfriend (the victim) and others in an attempt to

14a
Appendix B
persuade them not to testify against him on the domestic
violence charge or to testify falsely. The jail recorded these
conversations and turned them over to the prosecution.
These telephone calls were the basis for Brooks’ first
conviction for tampering with a witness or victim, a class
4 felony. Brooks does not appeal that conviction.
After the jail officers learned of these telephone calls,
Brooks’ telephone privileges were discontinued, but that
did not stop him from further trying to tamper with the
victim. Instead of phone calls, he wrote letters to the victim
to persuade her either not to testify or to testify falsely on
his behalf. Because he knew that if he attempted to mail
the letters to the victim they would be intercepted by the
jail, he hid them in an issue of Westword magazine and
asked his cellmate to deliver them to the victim after the
cellmate was released from jail. His cellmate refused to
participate and instead gave the letters to a jail officer. As
a result of this interception, the victim never received the
letters. These letters formed the basis of the prosecution’s
second count of tampering with a witness or victim.
The jury acquitted Brooks of assault in the second
degree (either a class 4 or class 6 felony) and two counts
of disarming a peace officer (a class 5 felony), but the jury
convicted him of two counts of assault in the third degree
against the victim (a class 1 misdemeanor), two counts of
assault in the third degree against a peace officer (a class
1 misdemeanor), resisting arrest (a class 2 misdemeanor),
violation of a protection order (a class 1 misdemeanor),
and the two counts of tampering with a witness or victim
(both class 4 felonies) discussed above.

15a
Appendix B
After the jury returned its verdicts, the district court
held a trial on the habitual criminal count and adjudicated
Brooks a habitual criminal. The court imposed a twentyfour-year sentence of imprisonment, as mandated by the
habitual criminal statute.
Brooks requested and received an abbreviated
proportionality review of the mandatory sentence. At the
conclusion of that hearing, the district court concluded that
Brooks’ sentence was not disproportionate to his offenses
and denied him an extended proportionality review.
II. There Was Sufficient Evidence to Support Brooks’
Conviction For Tampering With a Witness or
Victim
Brooks argues that there was insufficient evidence
to convict him of the second count of tampering with a
witness or victim based on the letters because the victim
never received them.1 Because this argument relies on
an unwarranted reading of the tampering statute, we
reject it.
1. Contrary to the Attorney General’s claim, Brooks did not
waive this argument. Brooks conceded there was sufficient evidence
to convict him of the supposed inchoate crime of attempt to tamper
with a witness or victim, but he did not concede there was sufficient
evidence to convict him of the substantive crime of tampering with a
witness or victim. Because Brooks contended the inchoate crime and
the substantive crime were substantially different, his concession
that there was sufficient evidence to convict him of the uncharged
inchoate crime did not waive his sufficiency of the evidence claim
regarding the substantive crime of which he was convicted.

16a
Appendix B
The statute provides as follows:
A person commits tampering with a witness
or victim if he intentionally attempts without
bribery or threats to induce a witness or victim
or a person he believes is to be called to testify
as a witness or victim in any official proceeding
or who may be called to testify as a witness to
or victim of any crime to:
(a) Testify falsely or unlawfully withhold any
testimony; or
(b) Absent himself from any official proceeding
to which he has been legally summoned; or
(c) Avoid legal process summoning him to
testify.
§ 18-8-707(1), C.R.S. 2016 (emphasis added).
Statutory interpretation is a question of law that we
review de novo. Marsh v. People, 389 P.3d 100, 2017 CO
10M, ¶ 19; Wolf Ranch, LLC v. City of Colorado Springs,
220 P.3d 559, 563 (Colo. 2009). We begin by applying
two principles to the words and phrases at issue in the
statute. First, we give the words and phrases their plain
and ordinary meaning according to the rules of grammar
and common usage. People v. Voth, 312 P.3d 144, 2013 CO
61, ¶ 21, Sidman v. Sidman, 2016 COA 44, ¶ 13; § 2-4-101,
C.R.S. 2016. Second, we consider the words or phrases
both in the context of the statute and in the context of any

17a
Appendix B
comprehensive statutory scheme of which the statute is a
part. Doubleday v. People, 364 P.3d 193, 2016 CO 3, ¶ 20;
Jefferson Cty. Bd. of Equalization v. Gerganoff, 241 P.3d
932, 935 (Colo. 2010). By applying these principles, we
attempt to determine the General Assembly’s intended
meaning of the words or phrases, and harmonize that
meaning with the comprehensive statutory scheme. Id. If
the statutory language is not susceptible of more than one
reasonable meaning, we enforce it as written and do not
resort to other rules of statutory construction. Davison
v. Indus. Claim Appeals Office, 84 P.3d 1023, 1036 (Colo.
2004); People v. Dist. Court, 713 P.2d 918, 921 (Colo. 1986).
Brooks argues that while an attempt to tamper need
not be successful, the statute nevertheless requires that
the attempt to tamper must at least reach the victim or
witness. 2 Because it is undisputed that the letters did not
reach the victim, Brooks claims that there was insufficient
evidence to support his conviction. He concedes that he
is guilty of a criminal attempt, as defined in section 182-101(1), C.R.S. 2016, to tamper with a witness or victim,
but notes that he was not charged with this crime (a crime
that, as we discuss below, does not exist).
We reject this argument because the concept of
attempt is built into the tampering statute — the crime
is completed when a defendant “intentionally attempts”
to tamper with a victim or witness. § 18-8-707(1). If there
2. Brooks did not waive this argument either. He acquiesced in
the trial court’s elemental instruction on tampering with a witness or
victim but did not waive his argument that, to sustain a conviction,
the tampering had to actually be communicated to the victim.

18a
Appendix B
were such a crime as attempted tampering with a witness
or victim, it would be defined as “engaging in conduct
constituting a substantial step toward the commission
of the offense” of “intentionally attempt[ing]” to tamper
with a witness or victim. See § § 18-2-101(1), 18-8-707. We
conclude that no such crime exists because it would be
illogical to recognize a crime premised on an attempt to
attempt, and “[a] statutory interpretation leading to an
illogical or absurd result will not be followed.” Frazier v.
People, 90 P.3d 807, 811 (Colo. 2004).
People v. Yascavage, 101 P.3d 1090 (Colo. 2004), does
not require a different result. In Yascavage, the Colorado
Supreme Court held that there was insufficient evidence
to support the defendant’s conviction for solicitation to
tamper with a witness or victim. Id. at 1096. Brooks argues
that the court’s recognition of the crime of solicitation
to tamper with a witness or victim necessitates the
recognition of the crime of attempting to tamper with a
witness or victim. Brooks cites no authority, and we have
found none, for the proposition that the existence of one
inchoate form of an offense requires the existence of other
inchoate forms of the offense.
We also observe that the Yascavage court held that
“[t]he purpose of the [tampering with a witness or victim
statute] was to punish any attempt to induce another to
testify falsely or otherwise to subvert the administration
of justice.” Id. at 1092 (emphasis added). Thus, Yascavage
provides no support for Brooks’ contention that there is
a crime of attempt to attempt to tamper with a witness
or victim.

19a
Appendix B
Neither does People v. Scialabba, 55 P.3d 207 (Colo.
App. 2002), in which the division held that the defendant,
who was charged with witness tampering, was not
entitled to an instruction on the affirmative defense of
abandonment. The defendant sent a letter to the victim
trying to convince her not to appear in court and also
asked his mother to tell the victim not to appear in court.
Id. at 210. Because the defendant had completed the crime
when he sent the letter and asked his mother to dissuade
the victim from testifying, the division held that he was
not entitled to an abandonment instruction. Id. at 210-11.
Contrary to Brooks’ contention, the division did not hold
that attempted but unaccomplished communication with
the victim or witness could not support a conviction under
the statute.
Nothing in the plain language of the statute requires
that the defendant actually contact a witness or victim
either. Rather, an attempt by the defendant to do so is
all the statute requires in this respect. The trial court
instructed the jury that “attempt” in the tampering with
a witness or victim statute means, “intentionally engaging
in conduct constituting a substantial step toward the
commission of the crime of Tampering with a Witness.” 3
3. Brooks makes a perfunctory argument that the trial court
erred when it defined the word “attempt” by utilizing the definition
contained in the criminal attempt statute, section 18-2-101, C.R.S.
2016. Brooks contends that the common dictionary definition of
“attempt” should have been used instead. The common meaning of
the word attempt is “to make an effort to do, accomplish, solve, or
effect.” Webster’s Third New International Dictionary 140 (2002).
But the use of the statutory definition of criminal attempt was more

20a
Appendix B
The jury was entitled to find that Brooks did everything
within his power to attempt to unlawfully influence the
victim. He wrote the letters, concealed them from the
jail staff, and asked another inmate to deliver them to
the victim. The fact that Brooks’ scheme failed provides
him no defense.
For these reasons, we conclude that there was
sufficient evidence to support Brooks’ second conviction
for tampering with a witness or victim.
III. The District Court Did Not Abuse Its Discretion
in Taking Judicial Notice of Court Files in the
Habitual Criminal Adjudication, and Sufficient
Evidence Supported the Habitual Criminal
Adjudication
Brooks argues that the district court abused its
discretion in taking judicial notice of the complete case
files of his prior felony convictions and that without such
improper judicial notice there was insufficient evidence
to support the habitual criminal adjudication.

favorable to Brooks than the dictionary definition because it imposed
a greater proof burden on the prosecution. Therefore, any error in
this respect could not have harmed Brooks. This conclusion also
makes it unnecessary for us to determine in this case what meaning
should be given to the word “attempt” in the tampering statute.
“[I]f it is not necessary to decide more, it is necessary not to decide
more[.]” PDK Labs. Inc. v. U.S. Drug Enf’t Admin., 362 F.3d 786,
799, 360 U.S. App. D.C. 344 (D.C. Cir. 2004) (Roberts, J., concurring
in part and concurring in the judgment).

21a
Appendix B
A conviction under the habitual criminal statute
at issue requires the prosecution to prove beyond a
reasonable doubt that a defendant has three prior felony
convictions arising out of separate and distinct criminal
episodes. § 18-1.3-801(2)(a)(I)(A).
Brooks contends that only by taking judicial notice of
documents that were not properly subject to judicial notice
could the court have found that his prior convictions for
criminal trespass of a dwelling and theft from a person
“relate to different criminal conduct on separate dates
and that the People have separately brought and tried
those offenses.” Because the predicate of his argument
is wrong, we reject it.
Brooks concedes (for good reason) that the district
court was entitled to take judicial notice of the registers
of actions contained in the Integrated Colorado Online
Network in the underlying cases. See, e.g., People v.
Sa’ra, 117 P.3d 51, 56 (Colo. App. 2004) (“A court may take
judicial notice of the contents of court records in a related
proceeding.”). But he argues that the registers of actions
themselves were insufficient to make a prima facie case
that two of his three prior felonies related to different
criminal conduct on separate dates and were separately
brought and tried.
The registers of actions for these felony convictions
establish the following:
• In Boulder District Court case number 10CR716,
Brooks pleaded guilty to first degree trespass of a

22a
Appendix B
dwelling on June 18, 2010, with an offense date of
February 5, 2010.
• In Boulder District Court case number 10CR760,
Brooks pleaded guilty to theft from a person June
18, 2010, with an offense date of April 17, 2010.
The information contained in the registers of actions made
a prima facie showing that these cases addressed different
criminal conduct that occurred on different dates.
But because Brooks entered guilty pleas in both cases
on the same date and in the same court, whether the
prosecution separately brought and tried these cases is a
closer question. The proof required to establish whether
two guilty pleas entered on the same date would have
been separately tried is whether — under the mandatory
joinder statute — they arose out of separate and distinct
criminal episodes. People v. Jones, 967 P.2d 166, 169 (Colo.
App. 1997). Information such as the dates on which the
crimes were committed and the types of crimes committed
may prove that the crimes were separate and distinct
criminal episodes. People v. Copeland, 976 P.2d 334, 342
(Colo. App. 1998), aff’d, 2 P.3d 1283 (Colo. 2000).
In People v. Jones, 967 P.2d 166, 170 (Colo. App.
1997), it was plausible that two crimes, which were both
burglaries, committed on consecutive dates, and in the
same area, could have arisen from a single criminal
episode. Therefore, without additional evidence about the
underlying convictions, the division concluded that there
was insufficient proof that the defendant’s convictions
arose from separate and distinct criminal episodes. Id.

23a
Appendix B
However, unlike in Jones, the registers of actions
relevant to this case showed that the two prior felony
convictions were for distinct criminal offenses that
occurred months apart. Thus, even though Brooks
pleaded guilty on the same day and in the same court,
the registers of actions made a prima facie case that his
criminal trespassing of a dwelling and theft from a person
convictions arose “from charges which, had they not been
adjudicated through the entry of guilty pleas, would have
been tried separately.” Gimmy v. People, 645 P.2d 262, 267
(Colo. 1982). Both cases were “separately ‘brought’ — i.e.,
in separate informations, with separate docket numbers,
arising out of separate criminal incidents.” Id.
While Brooks was free to attempt to disprove these
facts, he chose not to do so. It follows that sufficient
evidence supported Brooks’ habitual criminal conviction.
IV. Brooks’ Guilty Plea to Felony Theft Was Valid
Brooks argues that his plea of guilty to felony theft
from a person — his third underlying felony conviction
— was constitutionally invalid and thus could not support
his habitual criminal conviction.
“A prior conviction obtained in a constitutionally
invalid manner cannot be used against an accused in a
subsequent criminal proceeding to support guilt or to
increase punishment.” Lacy v. People, 775 P.2d 1, 4 (Colo.
1989).
To attack the constitutional validity of his prior
conviction, a defendant must make a prima facie showing

24a
Appendix B
that the challenged conviction was unconstitutionally
obtained. Watkins v. People, 655 P.2d 834, 837 (Colo.
1982). “A prima facie showing in the context of this case
means evidence which, when considered in a light most
favorable to the defendant with all reasonable inferences
drawn in his favor, will permit the court to conclude that
the defendant’s plea of guilty was not understandingly
made.” Id.
Brooks arguably made such a prima facie case by
demonstrating that the plea court did not advise him of all
the “critical elements” of felony theft, section 18-4-401(5),
C.R.S. 2016. During the providency hearing, the court had
the following exchange with Brooks:
Court: How do you plead with respect to that
added Count 2 which charges on or about April
17, 2010, in or triable in the County of Boulder,
State of Colorado, you unlawfully, feloniously
and knowingly took a thing of value, namely
a purse, from the person of [female victim], in
violation of Section 18-4-401, sub 1, sub 5, CRS?
. . . Mr. Brooks, how do you plead with respect
to added Count 2?
Brooks: I wish to plead guilty, Your Honor.
The court’s advisement and the charging document (which
mirrored the court’s advisement) did not advise Brooks of
the specific intent element of the crime: a defendant must
“[i]ntend[] to deprive the other person permanently of the

25a
Appendix B
use or benefit of the thing of value.” § 18-4-401(1)(a). Thus,
for present purposes we assume that Brooks’ conviction
was constitutionally invalid unless the prosecution
established by a preponderance of the evidence that
Brooks’ plea met constitutional requirements. Watkins,
655 P.2d at 837.
A plea is constitutionally valid when the defendant
enters it voluntarily and knowingly. Lacy, 775 P.2d at
4. Colorado cases “have recognized that the degree of
explanation that a court should provide depends on the
nature and complexity of the crime and that no particular
litany need be followed in accepting a tendered plea of
guilty.” Id. at 6. The record as a whole must demonstrate
that the defendant understood the critical elements of the
crime and the possible penalty or penalties. Id. at 4-5.
Based on the record as a whole, the district court found
that Brooks’ plea to the theft charge was voluntary and
that Brooks understood the elements of the crime to which
he pleaded guilty. The court found that the facts of the
underlying crime were that Brooks distracted a woman
so that another man could steal her purse. Considering
these facts, the court held that “the very nature of the
underlying crime would advise Mr. Brooks . . . that this
theft was one that involved an intent to permanently
deprive.” We agree.
If the law were as Brooks contends — that the
defendant must always be advised expressly of every
element of the crime to validate the conviction under the
habitual criminal statute — we would agree with him. But
the law is otherwise.

26a
Appendix B
Brooks relies on two Colorado Supreme Court cases,
People v. Colosacco, 177 Colo. 219, 493 P.2d 650 (1972), and
Lacy, 775 P.2d 1, where the trial court’s failure to include
a meaningful explanation of the specific intent element of
the crime was fatal to the validity of the conviction. But
Colosacco and Lacy are factually distinguishable because
in those cases, unlike this one, the underlying nature of
the crime required the court to inform the defendant of
the crime’s specific intent element.
In Colosacco, the defendant pleaded guilty to
possession of counterfeit checks after the judge advised
him that the nature of the charge was “possession of
the forged or counterfeit [checks] with knowledge that
they were counterfeit.” 177 Colo. at 221, 493 P.2d at 650.
Under the facts presented, the defendant could have
reasonably believed that he was guilty of the crime simply
by possessing checks, irrespective of whether he intended
to pass them with the intent to defraud. Thus, because the
judge “failed . . . to advise the defendant that the intent
to utter and pass the notes with intent to defraud was
an essential element of the charge,” the supreme court
concluded that the defendant’s guilty plea was invalid. Id.
at 221-22, 493 P.2d at 650-51.
In Lacy, the Colorado Supreme Court considered
a guilty plea to theft of a car. 775 P.2d at 8. The victim
testified that she had loaned the car to the defendant on
past occasions but that she had not given him permission
to use it on the occasion that gave rise to the theft charge.
Id. Therefore, without an explanation of the specific intent
element, the defendant could have reasonably believed

27a
Appendix B
that he was guilty of theft for borrowing the victim’s car,
even if he did not intend to permanently deprive her of
it. Because the providency hearing was “entirely devoid
of any accurate or understandable explanation of the
charge,” the defendant’s plea was invalid. Id. at 9.
The facts and crimes in Colosacco and Lacy are
distinguishable from Brooks’ theft of a purse from a
person whom he did not know. We agree with the district
court that it is inconceivable that forcibly grabbing a
stranger’s purse would be for any purpose other than to
permanently deprive the owner of her property.
Several out-of-state cases further support this
analysis.
In State v. Gabert, 152 Vt. 83, 564 A.2d 1356, 1358 (Vt.
1989), the defendant pleaded guilty to lewd and lascivious
conduct. He conceded that he understood the charge, but
he argued that his plea was invalid because of “the court’s
failure to explain that the crime involves acts intentionally
done ‘with a view to excite unchaste feelings and
passions.’” Id. (citation omitted). The Vermont Supreme
Court rejected this argument, concluding that the plea
was valid because “under the circumstances here further
inquiry about intent was unnecessary. The alleged acts
could hardly give rise to an equivocal motivation . . . .” Id.
In State v. Brooks, 120 Ariz. 458, 586 P.2d 1270, 1271
(Ariz. 1978), the defendant challenged the validity of his
guilty plea to child molestation. He argued there was
no evidence that he understood intent to be an essential

28a
Appendix B
element of the crime. Id. Under Arizona law, “[a]n essential
element of the offense of child molestation . . . is that the
acts involved be ‘motivated by an unnatural or abnormal
sexual interest or intent with respect to children.’” Id.
at 1272 (citation omitted). But “[a]t no time during [the
court’s] questioning of defendant prior to [the court’s]
acceptance of his guilty plea did [the court] inquire into
his motivation for the offense.” Id. The Arizona Supreme
Court rejected the defendant’s argument because the
“defendant’s acts by their very nature manifest that he was
motivated by an unnatural or abnormal sexual interest or
intent with respect to children.” Id. at 1273.
By contrast, in Patton v. State, 810 N.E.2d 690, 691
(Ind. 2004), the defendant pleaded “guilty to attempted
murder without knowing that specific intent to kill was
an element of that offense.” The Indiana Supreme Court
found the defendant’s plea was invalid because the
evidence did not demonstrate specific intent beyond a
reasonable doubt. Id. at 698-99. But the court also held
that “failure of notice that specific intent is an element
of attempted murder will constitute harmless error . . .
where during the course of the guilty plea or sentencing
proceedings, the defendant unambiguously admits to, or
there is other evidence of, facts that demonstrate specific
intent beyond a reasonable doubt.” Id. at 696-97.
For all of these reasons, we conclude that the felony
theft conviction was constitutionally valid and that the
district court properly found it to be a predicate felony
conviction for Brooks’ habitual criminal adjudication.

29a
Appendix B
Brooks also argues that, in addition to the specific
intent element of theft, the court should have explained the
elements of complicity to him, as was required in People
v. Martin, 791 P.2d 1159, 1161-62 (Colo. App. 1989).
In Martin, a division of this court held that a
defendant’s guilty plea was constitutionally defective
because the court did not explain the elements of
complicity to him. Id. Defense counsel explained to the
court that the defendant had accepted the fruits of a
burglary and only pleaded guilty to burglary based on a
theory of complicity. Id. at 1161.
However, Martin is different from the present case for
three reasons. First, Brooks was more directly involved
in the theft than the defendant in Martin was in the
burglary. Second, Brooks pleaded guilty as a principal
and not, like the defendant in Martin, as a complicitor.
Finally, complicity liability in a burglary by after-thefact involvement is more complex than Brooks’ immediate
involvement in the crime of theft. Thus, unlike in Martin,
the court did not render Brooks’ plea unconstitutional by
failing to explain the elements of complicity.
For these reasons, we conclude that Brooks made
his plea voluntarily and knowingly and that the district
court did not err in finding that it was a valid prior felony
conviction under the habitual criminal statute.4
4. Although we conclude that Brooks’ plea was voluntary and
knowing, we do not agree with the Attorney General that this is so
solely because Brooks conferred with his counsel. “[A] showing that
defense counsel gave some explanation to his client of the charge

30a
Appendix B
V. Brooks’ Habitual Criminal Sentence Was Not
Grossly Disproportionate to His Crimes
A habitual criminal sentence violates the Eighth
Amendment if it is grossly disproportionate to the
defendant’s crimes. See People v. Deroulet, 48 P.3d 520,
523-24 (Colo. 2002). Brooks argues that the district court
erred in concluding that his sentence was not grossly
disproportionate to his crimes and in not granting him an
extended proportionality review. We reject his argument.
If a defendant challenges the proportionality of a
habitual criminal sentence, the defendant “is entitled
to an abbreviated proportionality review of his or her
sentence under the habitual criminal statute.” People v.
Cooper, 205 P.3d 475, 479 (Colo. App. 2008), abrogated
on other grounds as recognized by Scott v. People, 390
P.3d 832, 2017 CO 16. When conducting an abbreviated
proportionality review, a reviewing court scrutinizes the
triggering and predicate offenses in question to determine
“‘whether in combination they are so lacking in gravity or
seriousness’ so as to suggest that the sentence is grossly
disproportionate.” Deroulet, 48 P.3d at 524-25 (citation
omitted).
Colorado courts have held that certain crimes are per
se grave or serious. People v. Gaskins, 825 P.2d 30, 37
(Colo. 1992). These crimes are grave or serious “by their
to which the guilty plea is tendered does not by itself sufficiently
demonstrate that the defendant knew the critical elements of the
crime when the plea was entered.” Lacy v. People, 775 P.2d 1, 6
(Colo. 1989).

31a
Appendix B
very nature.” Id. For other crimes, “the determination
of whether the crime is grave or serious depends on the
facts and circumstances underlying the offense.” People v.
Hargrove, 338 P.3d 413, 2013 COA 165, ¶ 12. Specifically,
courts look to “whether the crime involves violence, and
the absolute magnitude of the crime” and compare that
to the culpability and motive of the defendant. Gaskins,
825 P.2d at 36-37.
“If, and only if, that abbreviated proportionality review
gives rise to an inference of gross disproportionality does
a . . . court need to engage in an extended proportionality
review,” in which it compares the sentence at issue to
sentences for the same offense in the same jurisdiction
and other jurisdictions. Close v. People, 48 P.3d 528, 536
(Colo. 2002). If the abbreviated proportionality review
yields no inference of gross disproportionality, the district
court must impose the sentence mandated by the habitual
criminal statute. Hargrove, ¶ 14.
Whether an abbreviated proportionality review yields
an inference of gross disproportionality is a question of
law that we review de novo. People v. McNally, 143 P.3d
1062, 1064 (Colo. App. 2005).
A.

Triggering Offenses

Tampering with a witness or victim is not a per se
“grave or serious” offense. However, we agree with the
district court that the facts underlying these crimes were
grave or serious.

32a
Appendix B
The district court explained that Brooks’ attempts
to tamper with the victim constituted “an extensive and
extreme scheme to tamper with the witness; in fact, I have
never seen anything like it.”
The prosecution identified at least 250 phone
conversations in which Brooks attempted to tamper with
a witness or victim. Further, as noted above, even after
his conduct came to light, his phone privileges were
suspended, and he was charged with the first count of
tampering, Brooks continued his attempts to tamper
with the victim. 5 For these reasons, we conclude that his
conduct demonstrated a blatant disregard for the law and
thus constituted a grave or serious offense.
B. Predicate Offenses
We agree with Brooks that his predicate offenses of
criminal trespass of a motor vehicle, criminal trespass
of a dwelling, and theft from a person were not per se
grave or serious. None of these offenses fall within the
list of offenses designated as per se grave or serious by
Colorado courts. See Deroulet, 48 P.3d at 524. But, as we
have explained above, that does not end the inquiry. We
must also consider the particular facts of these offenses to
determine if they were grave or serious. Hargrove, ¶ 12.
5. To the extent that Brooks argues that his alcohol and
drug problems mitigated the seriousness of his conduct regarding
tampering with a witness or victim, we reject the argument because
we assume that he was not under the influence of drugs or alcohol
while he was in jail pending trial.

33a
Appendix B
The underlying facts of the criminal trespass of a
motor vehicle conviction were that Brooks broke into a
victim’s car and stole some property. As for the criminal
trespass of a dwelling conviction, the underlying facts
were that Brooks took property from a house during a
party to which he had been invited. The underlying facts
of Brooks’ theft from a person conviction were that he
distracted a woman by asking for a cigarette, so that
another man could steal her purse.
Even if we assume without deciding that the predicate
offenses were not grave or serious, that too does not end
the matter. Instead, we must consider the triggering and
predicate offenses as a whole. Deroulet, 48 P.3d at 524-25.
C.

Comparison of Gravity of Crimes to Severity
of Punishment

We now compare the gravity of Brooks’ offenses as
a whole to the severity of his twenty-four-year habitual
criminal sentence, giving great deference to the General
Assembly’s determinations of criminal penalties. Id. at 527.
While Brooks’ predicate offenses were not per se
grave or serious, Brooks’ triggering offenses were grave
or serious. As the district court explained, Brooks’
tampering was a “persuasive and unrelenting campaign to
manipulate the cooperation of the victim.” The tampering
offenses are notable not only for the number of times
Brooks tried to influence the victim (the prosecution cited
250 phone calls in its first tampering charge) and the
blatantly manipulative nature of the communications, but

34a
Appendix B
also for the fact that Brooks could not be dissuaded from
tampering with the victim. Brooks continued tampering
with the victim after the prosecution charged him with
the first count of tampering and his phone privileges
were discontinued. As the district court noted, the
nature of these offenses demonstrates that Brooks was
“uncontrollable in the community and commits crimes
and doesn’t appear to be able to stop committing crimes.”
Further, “it is appropriate for the court conducting
the proportionality review to consider” aggravating or
mitigating information about the defendant. People v.
Austin, 799 P.2d 408, 413 (Colo. App. 1990). We recognize
that Brooks was acquitted of several felony charges but
also note that he was convicted of the lesser included
misdemeanor offenses of two counts of assault in the
third degree against his pregnant girlfriend, two counts
of third degree assault against a peace officer, and
resisting arrest. All of these crimes involved violence.
Following Austin, we consider Brooks’ conduct underlying
these misdemeanor convictions in determining whether
the sentence imposed was grossly disproportionate.
Considering all of the convictions and the underlying
circumstances as a whole, we agree with the district court
that Brooks’ twenty-four-year mandatory sentence was
not grossly disproportionate.6
6. In addition to the offenses discussed above, the district court
considered Brooks’ separate felony conviction for contributing to the
delinquency of a minor, which was entered after his conviction under
the habitual criminal statute. The contributing to the delinquency
of a minor conviction was based on events that predated the
triggering offenses, but the judgment of conviction was not entered

35a
Appendix B
VI. Conclusion
The judgment of conviction and sentence are affirmed.
JUDGE DAILEY and JUDGE J. JONES concur.

until Brooks was sentenced under the habitual criminal statute.
Therefore, this conviction could not have served as a predicate
offense (and indeed, it was not pleaded as such). People v. Loyas,
259 P.3d 505, 512 (Colo. App. 2010). Whether erroneous or not, the
district court’s consideration of this conviction does not alter our
analysis or conclusion.

36a
Appendix COF TRANSCRIPT
APPENDIX C — EXCERPT
OF THE DISTRICT COURT OF COLORADO,
BOULDER COUNTY, DATED AUGUST 8, 2013
[1]DISTRICT COURT
BOULDER COUNTY
COLORADO
1777 6th Street
Boulder, CO 80302
Case No. 11CR90
Division 6
PEOPLE OF THE STATE OF COLORADO
Plaintiff,
v.
KYLE BROOKS
Defendant.
The matter came on for hearing on August 8th, 2013,
before the HONORABLE ROXANNE BAILIN, Judge of
the Boulder District Court, and the following proceedings
were had.
***
[20]THE COURT: Mm-hmm. Okay. All right. So, one,
it’s clear that the charge of theft from the person requires
that someone take a thing of value from the person of

37a
Appendix C
someone as opposed to just theft outside of the presence
of a person, and that’s what makes it a more serious crime,
and the charge itself does not have the language that is in
a normal theft charge, which is with intent to permanently
deprive. I think that it would be useful if it did have
that language in it, but it does not. So the charge -- the
charging document itself or the amended charge doesn’t
advise Mr. Brooks specifically of the intent to permanently
deprive. And so when he’s asked if he understands what
the charge means -- let me just delete the beginning of
that sentence because I’m not there yet.
So as I was saying, that the charge itself does not advise
Mr. Brooks of the element of the intent to permanently
deprive; however, at the time that he is pleading guilty
he’s represented by Ms. Ramsey and -- and certainly I can
find that she is competent counsel. And the Court does ask
Mr. Brooks, [21]Do you understand in 10 CR 760 that you
are going to be pleading guilty to an added Count 2, the
charge is theft from a person, also a Class 5 felony, and
Mr. Brooks answers, Yes, Your Honor. And then the Court
states, Do you understand the elements of the charge,
and he says, Yes. So that’s, one, that he is represented
by counsel and he’s affirmatively acknowledging that he
understands the elements of the charge.
The Court ultimately reads the charge to him on page
9. And there’s a colloquy with Ms. Ramsey in which she
makes it clear to the Court that Mr. Brooks’ position is
that he -- that his co-defendant actually stole the purse,
but that she explained to him under the complicity theory
that there’s a risk that the jury might find that he was
involved in the stealing of the purse. And that’s what this

38a
Appendix C
plea is based on. And so Mr. Brooks hears that and then
he chooses to plead guilty.
Another way to establish what Mr. Brooks knows is
through the establishment by the People of the factual
basis. However, Ms. Ramsey waives the establishment
of the factual basis. So the question is -- I agree with
Mr. Johnson, that the question is does Mr. Brooks at
the time that he pleads guilty understand what he is
pleading guilty to. First of all, I think that the Marshall v.
Lonberger case does stand for the principle that the Court
can take into consideration any previous pleas of guilty,
whether the Defendant’s [22]intelligence and experience
with the criminal justice system would indicate that he
understands statements made by the judge, and that the
Court does not have to consider the four corners of the
plea disposition.
The Court further finds that there is no case law that
requires that if the Court is using -- in my position is using
-- I’m sorry -- in the position of Judge Berkenkotter, is
using a previous plea of guilty to support his knowledge
of the elements of the offense that she specifically has to
refer to in the dispositional hearing.
The Court further finds that on May 14th, 2009 that
Mr. Brooks pled guilty in front of Judge Stavely in County
Court to a misdemeanor theft, at which time on page 4
Judge Stavely says, again, under 18-4-401 it means that
you unlawfully and knowingly obtained or exercised
control over a thing of value that belonged to another
person, the thing of value being under $500; you did so by

39a
Appendix C
threat, deception or some other means with the intent to
permanently deprive the owner of the thing of value. So
in Mr. Brooks’ criminal history in the previous year he
pleads guilty to theft and is given a specific advisement
that includes the intent to permanently deprive the owner
of this thing of value.
Next, I think that there’s a distinction between cases
in which there is some suggestion that there wasn’t an
intent to permanently deprive. I recently within the last
[23]couple of months was asked to evaluate whether a
certain plea disposition was adequate and one of the
charges was also a theft. The Court in that case had not
advised of the intent to permanently deprive, and there
was a significant question in that case whether the acts
of the defendant could reasonably be construed as not
intending to permanently deprive; in other words, just to
take something briefly in order to annoy someone. And I
think that’s the same problem in Lacey is that the facts
of that case would suggest that there was a sort of triable
issue or at least a question about whether the defendant in
that case really intended to take the car without consent
and permanently deprive.
In this case the facts are that Mr. Brooks and Mr.
Garcia are out on the streets of Boulder near downtown,
they see a couple of young women walking presumably
away from the Pearl Street mall. Mr. Brooks approaches
them and asks for a cigarette, and in doing so he’s trying
to distract them so that Mr. Garcia can then run toward
them and grab the purse and run off with it. And I think
that when you’re talking about a theft from a person in

40a
Appendix C
that context, that the only reasonable conclusion that a
defendant could reach is that part of the theft from a
person was intending to permanently deprive. You know,
it’s nonsensical to think that when Mr. Garcia snatches
this purse off the arm of the young woman and runs away
with it, that his plan is -- is to just hang on [24]to it for a
few minutes and then give it back. So the very nature of
the underlying crime would advise Mr. Brooks that -- that
this theft was one that involved an intent to permanently
deprive.
So based on his full advisement of what “theft” means
just the year before, and that this particular crime is not
like the one I was dealing with a couple of months ago
or like the Lacey case in which there’s some reasonable
basis to question about whether there was an intent to
permanently deprive, leads me to the conclusion that Mr.
Brooks understood what the charge meant and what was
involved in that charge, and I will find that it was not
unconstitutionally taken.
All right. So that then eliminates the discussion about
whether the People have to elect, because that issue was
only before the Court if I found that the plea in 760 was
unconstitutionally taken. So then I think that we move
onto the sentencing phase.
****

41a
APPENDIX D —Appendix
MINUTEDORDER OF THE
DISTRICT COURT, BOULDER COUNTY, STATE
OF COLORADO, DATED JULY 8, 2013
DISTRICT COURT, BOULDER COUNTY,
STATE OF COLORADO
1777 Sixth Street, Boulder, Colorado 80302
(303) 441-3722
Case Numbers: 11CR1849, 11CR1850,
10CR760, 11CR90, 10CR716, 09CR72
Division 4 Courtroom L
PEOPLE OF THE STATE OF COLORADO,
vs.
KYLE BROOKS,
Defendant.
MINUTE ORDER RE: HABITUAL
OFFENDER HEARING
On June 27, 2013, the following actions were taken in
the above-captioned cases. The matter is before the Court
for a habitual offender criminal hearing. The Court’s
findings of fact and conclusions of law stated in open
court on the record are hereby incorporated. The Clerk
is directed to enter these proceedings in the register of
actions:

42a
Appendix D
COURT REPORTER: Michelle Kirkpatrick
COURT ORDERS/ACTIONS:
Defense’s Motion to Dismiss Count 9 of Amended
Complaint in 11CR849
The Defense argues that the “Theft from the Person”
conviction in 10CR760 is constitutionally defective, and
therefore cannot be used against Defendant in a habitual
criminal proceeding.
The People ask the Court for an opportunity to respond to
the motion, request a hearing regarding the motion, and
an opportunity to call witnesses. The People plan to call
Curtis Ramsey, the Defendant’s attorney at the time the
plea was entered. The People maintain that the conviction
in 2010CR760, “Theft from the Person”, is critical to the
ultimate determination of habitual offender; specifically,
whether three times the maximum or four times the
maximum presumptive applies in this case.
If necessary, the Court will address the “Theft from the
Person” conviction in 10CR760 at the August 8, 2013 9:00
a.m. sentencing hearing.
Admissibility of People’s Exhibits 1, 2, and 3: court
documents that state the offense and the case numbers
of which Kyle Brooks was sentenced to intensive
supervision probation
Defense objects to admissibility of People’s exhibits 1, 2,
and 3. Pursuant to § 18-1.3-802 C.R.S. and 803(8) C.R.E,

43a
Appendix D
the Court finds that the People’s exhibits 1, 2, and 3 are
admissible in a habitual offender trial and are admitted.
Admissibility of People’s Exhibits 8, 9, and 10: stamped
and certified sentencing orders
Defense objects to admissibility of People’s exhibits 8, 9,
and 10. Pursuant to § 18-1.3-802 C.R.S. and 803(8) C.R.E.
the Court finds that the People’s exhibits 8, 9, and 10 are
admissible in a habitual offender trial and are admitted.
Judicial Notice
Pursuant to 201 C.R.S., the Court takes judicial notice of
the fact that there are 3 court files, 2009CR72, 10CR716,
and 10CR760, that all relate to different criminal conduct
on separate dates, and that the People have separately
brought and tried those offenses.
Underlying Science of Fingerprint Analysis
Defense argues that the underlying science for fingerprint
analysis has not been demonstrated satisfactorily. The
Court finds that fingerprint analysis has been established
for decades as having an adequate scientific basis to be
admitted in a court of law.
Qualification of Dane Cavins to Testify as an Expert
Witness
Defense objects to qualifying Dane Cavins as an expert
witness in fingerprint comparison and analysis. The Court
finds that Dane Cavins has extensive, long-term training

44a
Appendix D
and education in the field of fingerprint analysis and is
qualified to testify as an expert witness in fingerprint
comparison and analysis.
People’s Exhibits 4, 5, and 6: certified fingerprint cards
Defense objects to admissibility of People’s exhibits
4, 5, and 6 based on lack of foundation and grounds of
confrontation. Pursuant to § 18-1.3-802 C.R.S. and 902
C.R.E., the Court admits exhibits 4, 5, and 6.
People’s Exhibits 10 and 11: mug shots
Defense objects to admissibility of People’s exhibits
10 and 11 based on lack of foundation and grounds of
confrontation. Pursuant to § 18-1.3-802 C.R.S. and 902
C.R.E., the Court admits exhibits 10 and 11.
Curtis Advisement
The Court gave the Defendant a Curtis Advisement. The
Court finds that Defendant understands he has a right to
testify or not testify, and he chose to remain silent and
did so freely, voluntarily, and knowingly.
Habitual Offender Findings
Subject to a later argument with regard to whether the
plea in 10CR760 is constitutionally defective or not, the
Court finds that the People have proven the habitual
offender counts beyond a reasonable doubt.

45a
Appendix D
THE COURT FINDS THAT THE PEOPLE HAVE
PROVEN THE HABITUAL OFFENDER COUNTS
BEYOND A REASONABLE DOUBT.
THIS MATTER IS SET FOR SENTENCING ON
AUGUST 8, 2013 AT 9:00 AND FOR A HEARING,
IF NECESSARY, ON THE ISSUE OF WHETHER
THE PLEA IN 10CR760 IS CONSTITUTIONALLY
DEFECTIVE. THE COURT WILL ALSO ENTERTAIN
A PROPORTIONALITY REVIEW.
THE COURT ORDERED A PSI. THE COURT
LIFTS THE NO TELEPHONE AND NO CONTACT
ORDER AT THE JAIL. HOWEVER, THE JAIL IS
PERMITTED TO USE NORMAL PROCEDURES TO
REGULATE THE DEFENDANT’S CONDUCT.
Dated this 8th day of July, 2013, nunc pro tunc, June 27,
2013.
BY THE COURT
/s/				
Roxanne Bailin
District Court Judge

46a
Appendix
E
Appendix
e — excerpt
of
transcript of HEARING IN the district
court of colorado, boulder county,
DATED JUNE 18, 2010
[1]DISTRICT COURT
BOULDER COUNTY
COLORADO
1777-6th Street
Boulder, CO 80302
Case No. 10CR760,
10CR716, 09CR72
PEOPLE OF THE STATE OF COLORADO
v.
KYLE CHANCE BROOKS
The matter came on for Hearing on June 18, 2010,
before the HONORABLE MARIA BERKENKOTTER,
Judge of the District Court.
***
[4]MS. RAMSEY: Yes, it is, Your Honor.
THE COURT: Mr. Brooks, I’m going to turn to you,
and I guess everybody else in the courtroom that is going
to enter into a disposition or a plea bargain in your case,
I’m going to ask that you listen along while I advise Mr.
Brooks. When it’s your turn to have your case called, it
will speed up or expedite the process.

47a
Appendix E
Having said that, if for any reason you can’t hear me
or don’t understand something I’m saying, I’m happy to
go through it step by step with all of you.
With that said, I’m going to turn back to Mr. Brooks.
As I said, there are a number of important rights you are
going to be waiving and giving up in connection with your
entering a guilty plea this morning and I want to make
sure you understand the rights that you are going to be
waiving and giving up. Those include the right to enter
a plea of not guilty and have your cases set for trial; the
right to be represented by counsel at trial and all events
leading up to the trial and have the Court appoint counsel
to represent you if you cannot afford to hire your own; the
right to be presumed innocent and require the District
Attorney to prove the charges against you beyond a
reasonable doubt, the right to confront and cross examine
the witnesses against you or to have your attorney do so,
to call your own witnesses and have the Court issue [5]
subpoenas to require your witnesses to appear; the right
to remain silent, as well as the right to testify on your
own behalf and the right to decide for yourself whether
or not to testify.
You also have the right to have the Court instruct the
jury that your silence could not be used against you, and
finally, if you were convicted at trial, you would have the
right to appeal that conviction to a higher court. Do you
understand, Mr. Brooks, that you have all those rights?
THE DEFENDANT: Yes, ma’am, Your Honor.

48a
Appendix E
THE COURT: Do you understand you are going to be
waiving and giving up all those rights if you enter a plea
of guilty in both of these cases?
THE DEFENDANT: Yes, Your Honor.
THE COURT: I see you were given a written Rule
11 advisement form in both of these cases. Have you had
a chance to go over that form and review it also with Ms.
Ramsey?
THE DEFENDANT: Correct. Yes, I have.
THE COURT: Do you have any questions for me about
any of the information in those forms?
THE DEFENDANT: No, ma’am.
THE COURT: Are you satisfied with the services of
your attorney?
THE DEFENDANT: Yes, ma’am.
[6]THE COURT: Has anyone offered you anything I
don’t know about to get you to plead guilty?
THE DEFENDANT: No, Your Honor.
THE COURT: That is, has anyone threatened or
coerced you to get you to plead guilty?
THE DEFENDANT: No, Your Honor.

49a
Appendix E
THE COURT: Do you understand I’m not bound by
any promises that may be made concerning the sentence
in this case and ultimately the issue of sentencing is up
to me?
THE DEFENDANT: Yes, Your Honor.
THE COURT: How old are you?
THE DEFENDANT: Nineteen.
THE COURT: Where were you born?
THE DEFENDANT: Longmont, Colorado.
THE COURT: How far have you gone in school?
THE DEFENDANT: I recently obtained my GED
in custody.
THE COURT: That’s a good thing. Are you currently
under the influence of any type of alcohol or drugs or
medication?
THE DEFENDANT: No, Your Honor.
THE COURT: Is there any other reason why you
might not be thinking clearly right now?
THE DEFENDANT: No ma’am.
THE COURT: I want to make sure you understand
[7]what you’re pleading guilty to. Do you understand

50a
Appendix E
you are going to be pleading guilty in 10CR716 to Count
2 that charges first-degree criminal trespass, which is a
Class 5 felony?
THE DEFENDANT: Correct.
THE COURT: Do you understand the elements of
that charge?
THE DEFENDANT: Yes, ma’am.
THE COURT: Do you understand that as a Class
5 felony you are facing a maximum sentence to the
Department of Corrections of between one to three years
followed by a mandatory two-year period of parole?
THE DEFENDANT: Yes.
MS. PIGNATIELLO: Actually, Judge, I believe
it would be in the aggravated range since he was on a
deferred at the time.
THE COURT: You would then be facing a sentence
of between 30 months to four years. Is that correct, Ms.
Pignatiello?
MS. PIGNATIELLO: Judge, I think it’s two to six.
THE COURT: Two to six. This chart I’m looking
at is awful. You would be facing a sentence in the range
under these circumstances because you were on a deferred
judgment and sentence. The maximum sentence you

51a
Appendix E
would be facing instead of what I told you before would
actually be a [8]maximum sentence to the Department
of Corrections of between two to six years followed by a
mandatory two-year period of parole. Do you understand
that?
THE DEFENDANT: Correct.
THE COURT: Do you further understand in 10CR760
you are going to be pleading guilty to added Count 2 that
charges theft from a person, also a Class 5 felony?
THE DEFENDANT: Yes, Your Honor.
THE COURT: Do you understand the elements of
that charge?
THE DEFENDANT: Yes.
THE COURT: Do you understand again that with a
Class 5 felony under these circumstances, you would be
facing a sentence in the range of two to six years followed
by a mandatory two-year period of parole?
THE DEFENDANT: Yes, ma’am.
THE COURT: Mr. Brooks, before I ask how you plead,
do you have any questions for me about anything that’s
been discussed here this morning?
THE DEFENDANT: No, ma’am.

52a
Appendix E
THE COURT: How then do you plead in 10CR716 to
Count 2 which charges on or about February 5, 2010 in or
triable in the County of Boulder, State of Colorado, you
unlawfully, feloniously and knowingly entered or remained
in the dwelling of Thomas Brock located at 5115 Santa
Clara [9]Place, number A, Thomas Brock’s bedroom,
Boulder, Colorado, in violation of Section 18-4-502?
THE DEFENDANT: Guilty, Your Honor.
THE COURT: How do you plead -- the Court will
grant the motion to amend in 10CR760. How do you
plead with respect to that added Count 2 which charges
on or about April 17, 2010 in or triable in the County of
Boulder, State of Colorado, you unlawfully, feloniously
and knowingly took a thing of value, namely a purse, from
the person of Whitney Sasha Weis in violation of Section
18-4-401, sub 1, sub 5, CRS?
MS. RAMSEY: Your Honor, Mr. Brooks will be
entering a plea in this case to take advantage of the plea
bargain. Actually, factually, the co-defendant stole the
purse, and I explained to him under the complicity theory
there’s a risk that a jury might find that he was involved in
the stealing of the purse, but I want to be sure the Court
knows he didn’t take the purse in the case, the underlying
case that this plea is based on.
THE COURT: Thank you, Ms. Ramsey.
Mr. Brooks, how do you plead with respect to added
Count 2?

53a
Appendix E
THE DEFENDANT: I wish to plead guilty, Your
Honor.
THE COURT: Factual basis.
[10]MS. PIGNATIELLO: I think we will waive a
factual basis because we are setting it over for a PSI.
MS. RAMSEY: We will waive.
THE COURT: The Court will find there’s a waiver
of factual basis. The Court will further find that Mr.
Brooks understands the charges against him, the possible
penalties, and is knowingly, intelligently and voluntarily
entering his plea of guilty, in both of these cases.
The Court will further grant the motion to dismiss
Count 1 in 10CR760 and a motion to dismiss Counts 1,
3 and 4 in 10CR716. Court will set the matter over for
sentencing. Court will order a PSI. I’ll get to the issue of
bond in just a minute. I’m not sure the PSI can be done
quickly enough, but I have July 23, and then the next date
I have after that is August 20.
MS. RAMSEY: Could I do July 23, so we could -MS. PIGNATIELLO: That’s fine with me.
MS. RAMSEY: We can try and if the report isn’t done,
we can continue it.
THE COURT: Mr. Brooks, we will see you back here
on July 23 at 10:30.

54a
Appendix E
With respect -- I’m sorry -- to the 09CR72 case, I
guess we should briefly talk about that case. It appears to
me, Mr. Brooks, in that case there’s a complaint that’s been
filed that alleges you violated the terms and conditions
of [11]your deferred judgment and sentence. You have a
number of rights with respect to that, including the right
to have a hearing and to be presumed innocent, to require
the prosecution to prove the charge in the complaint
against you and be represented by counsel, also. Do you
understand all those rights?
****

55a
Appendixof
F rehearing of
Appendix f — denial
the colorado supreme court,
DATED SEPTEMBER 23, 2019
COLORADO SUPREME COURT
CASE ANNOUNCEMENTS
PETITIONS FOR REHEARING
The Supreme Court of the State of Colorado
2 East 14th Avenue - Denver, Colorado 80203
2019 CO 75M
Supreme Court Case No. 17SC614
Certiorari to the Colorado Court of Appeals
Court of Appeals Case No. 13CA1750
KYLE BROOKS,
Petitioner,
v.
THE PEOPLE OF THE STATE OF COLORADO,
Respondent.
Opinion modified, and as modified, Petition for
Rehearing DENIED. EN BANC.
The Opinion in the above referenced case announced on
September 9, 2019, has been modified. Attached is page
8 showing the marked revisions. Please substitute the
corrected page for the like page in the opinion.
Cheryl Stevens, Clerk
Colorado Supreme Court

56a
Appendix F
***
simple, the level of explanation required to demonstrate
that Brooks understood what he was pleading guilty to
is relatively low.
¶12 Second, the charging document in this case was
deficient because it omitted the specific intent element of
theft from a person:
COUNT 2- THEFT FROM A PERSON (F5)
That on or about April 17, 2010 in, or triable in,
the County of Boulder, State of Colorado KYLE
CHANCE BROOKS unlawfully, feloniously,
are more complicated and, in addition, also require a defendant to
understand the elements of burglary itself:
Theft
1. That the defendant,

Conspiracy to Commit Burglary
1. That the defendant,

2. in the State of Colorado, at 2. In the State of Colorado, at or
about the date and place charged,
or about the date and place
charged,
3. With the intent to promote or
facilitate the commission of the
2.3. Knowingly,
crime of burglary,
3 .4 . Obt a i ned, ret a i ned, or
e x e r c i s e d c o n t r o l o v e r 4. Agreed with another person or
persons that they, or one or more
anything of value of another,
of them, would engage in conduct
4.5. Without authorization or by
which constituted the crime of
threat or deception, and
burglary or an attempt to commit
the crime of burglary, and
5.6. Intended to deprive the
other person permanently of
5. The defendant, or a coconspirator,
the use or benefit of the thing
performed an overt act to pursue
of value.
the conspiracy.
COLJI-Crim. 4-4:01 (2018)
COLJI-Crim. G2:05 (2018).

57a
Appendixof
G rehearing of
Appendix g — denial
the colorado court of appeals,
dated august 3, 2017
Colorado Court of Appeals
2 East 14th Avenue
Denver, CO 80203
Boulder County
2011CR1850
Boulder County
2011CR1849
Court of Appeals Case Number:
2013CA1750
Plaintiff-Appellee:
The People of the State of Colorado,
v.
Defendant-Appellant:
Kyle Brooks.
August 3, 2017
ORDER DENYING PETITION FOR REHEARING

58a
Appendix G
The PETITION FOR REHEARING filed in this appeal
by:
Kyle Brooks, Defendant-Appellant
Jud A. Lohnes, Attorney
is DENIED.
Issuance of the Mandate is stayed until: September 1, 2017.
If a Petition for Certiorari is timely filed with the Supreme
Court of Colorado, the stay shall remain in effect until
disposition of the cause by that Court.
BY THE COURT
Dailey, J.
J. Jones, J.
Berger, J.

59a
H
Appendix H —Appendix
RELEVANT
COLORADO
REVISED STATUTES
Colorado Revised Statutes 2019
TITLE 18
CRIMINAL CODE
***
ARTICLE 1
Provisions Applicable to
Offenses Generally
***
PART 1
PURPOSE AND SCOPE OF CODE CLASSIFICATION OF OFFENSES
18-1-101. Citation of title 18. (1) This title shall
be known and may be cited as the “Colorado Criminal
Code”; within this title, the “Colorado Criminal Code” is
sometimes referred to as “this code”.
(2) The portion of any section, subsection, paragraph,
or subparagraph contained in this code which precedes a
list of examples, requirements, conditions, or other items
may be referred to and cited as the “introductory portion”
of the section, subsection, paragraph, or subparagraph.
***

60a
Appendix H
PART 4
THEFT
***
18-4-401. Theft. (1) A person commits theft when he or
she knowingly obtains, retains, or exercises control over
anything of value of another without authorization or by
threat or deception; or receives, loans money by pawn or
pledge on, or disposes of anything of value or belonging
to another that he or she knows or believes to have been
stolen, and:
(a) Intends to deprive the other person permanently
of the use or benefit of the thing of value;
(b) Knowingly uses, conceals, or abandons the thing
of value in such manner as to deprive the other person
permanently of its use or benefit;
(c) Uses, conceals, or abandons the thing of value
intending that such use, concealment, or abandonment will
deprive the other person permanently of its use or benefit;
(d) Demands any consideration to which he or she is
not legally entitled as a condition of restoring the thing of
value to the other person; or
(e) Knowingly retains the thing of value more than
seventy-two hours after the agreed-upon time of return
in any lease or hire agreement.

61a
Appendix H
(1.5) For the purposes of this section, a thing of value
is that of “another” if anyone other than the defendant has
a possessory or proprietary interest therein.
(2) Theft is:
(a) (Deleted by amendment, L. 2007, p. 1690, § 3,
effective July 1, 2007.)
(b) A class 1 petty offense if the value of the thing
involved is less than fifty dollars;
(b.5) Repealed.
(c) A class 3 misdemeanor if the value of the thing
involved is fifty dollars or more but less than three
hundred dollars;
(d) A class 2 misdemeanor if the value of the thing
involved is three hundred dollars or more but less than
seven hundred fifty dollars;
(e) A class 1 misdemeanor if the value of the thing
involved is seven hundred fifty dollars or more but less
than two thousand dollars;
(f) A class 6 felony if the value of the thing involved is
two thousand dollars or more but less than five thousand
dollars;
(g) A class 5 felony if the value of the thing involved
is five thousand dollars or more but less than twenty
thousand dollars;

62a
Appendix H
(h) A class 4 felony if the value of the thing involved is
twenty thousand dollars or more but less than one hundred
thousand dollars;
(i) A class 3 felony if the value of the thing involved is
one hundred thousand dollars or more but less than one
million dollars; and
(j) A class 2 felony if the value of the thing involved is
one million dollars or more.
(3) and (3.1) Repealed.
(4) (a) When a person commits theft twice or more
within a period of six months, two or more of the thefts
may be aggregated and charged in a single count, in
which event the thefts so aggregated and charged shall
constitute a single offense, the penalty for which shall
be based on the aggregate value of the things involved,
pursuant to subsection (2) of this section.
(b) When a person commits theft twice or more against
the same person pursuant to one scheme or course of
conduct, the thefts may be aggregated and charged
in a single count, in which event they shall constitute a
single offense, the penalty for which shall be based on
the aggregate value of the things involved, pursuant to
subsection (2) of this section.
(5) Theft from the person of another by means other
than the use of force, threat, or intimidation is a class 5
felony without regard to the value of the thing taken.

63a
Appendix H
(6) In every indictment or information charging a
violation of this section, it shall be sufficient to allege
that, on or about a day certain, the defendant committed
the crime of theft by unlawfully taking a thing or things of
value of a person or persons named in the indictment or
information. The prosecuting attorney shall at the request
of the defendant provide a bill of particulars.
(7) Repealed.
(8) A municipality shall have concurrent power to
prohibit theft, by ordinance, where the value of the thing
involved is less than one thousand dollars.
(9) (a) If a person is convicted of or pleads guilty or
nolo contendere to theft by deception and the underlying
factual basis of the case involves the mortgage lending
process, a minimum fine of the amount of pecuniary harm
resulting from the theft shall be mandatory, in addition
to any other penalty the court may impose.
(b) A court shall not accept a plea of guilty or nolo
contendere to another offense from a person charged
with a violation of this section that involves the mortgage
lending process unless the plea agreement contains an
order of restitution in accordance with part 6 of article
1.3 of this title that compensates the victim for any costs
to the victim caused by the offense.
(c) The district attorneys and the attorney general
have concurrent jurisdiction to investigate and prosecute
a violation of this section that involves making false
statements or filing or facilitating the use of a document

64a
Appendix H
known to contain a false statement or material omission
relied upon by another person in the mortgage lending
process.
(d) Documents involved in the mortgage lending
process include, but are not limited to, uniform residential
loan applications or other loan applications; appraisal
reports; HUD-1 settlement statements; supporting
personal documentation for loan applications such as
W-2 forms, verifications of income and employment,
bank statements, tax returns, and payroll stubs; and any
required disclosures.
(e) For the purposes of this subsection (9):
(I) “Mortgage lending process” means the process
through which a person seeks or obtains a residential
mortgage loan, including, without limitation, solicitation,
application, or origination; negotiation of terms; thirdparty provider services; underwriting; signing and
closing; funding of the loan; and perfecting and releasing
the mortgage.
(II) “Residential mortgage loan” means a loan or
agreement to extend credit, made to a person and
secured by a mortgage or lien on residential real property,
including, but not limited to, the refinancing or renewal of
a loan secured by residential real property.
(III) “Residential real property” means real property
used as a residence and containing no more than four
families housed separately.
****

65a
Appendix I Appendix
— plea Iagreement
COUNTY COURT, BOULDER
COUNTY, COLORADO
Boulder County Justice Center
1777 Sixth St
Boulder, Colorado 80302
(303) 441-3750
Case No: 10CR760
Division: 7
PEOPLE OF THE STATE OF COLORADO,
v
KYLE CHANCE BROOKS,
Defendant.
PLEA AGREEMENT, ADVISEMENT PURSUANT
TO CRIMINAL PROCEDURE RULE 11
AND PLEA OF GUILTY
I.

STATEMENT OF PLEA AGREEMENT
a.	The Defendant will plead guilty to Count 2.

All remaining counts in this case will be dismissed.
The sentence agreement for this case is:
The Defendant will be sentenced in Count 2
to a period of PROBATION, the length and
conditions of which will be determined by the
Court. If the Defendant violates probation, all

66a
Appendix I
sentence options are available to the Court
regardless of this agreement, and if a prison
sentence is imposed, the Defendant will be
sentenced to an additional MANDATORY
period of parole as required by state law.
If the Defendant violates any condition of
release or bond prior to sentencing under this
original agreement, this sentence stipulation
becomes null and void and the Defendant may
be sentenced at the DISCRETION OF THE
COURT.
There are specific additional agreements regarding this
disposition, which are agreed to by the Defendant and
the People:
b.

CULPABILITY AND ACCOUNTABILITY

A crime is committed when a defendant has committed
a voluntary act prohibited by law accompanied by a culpable
mental state. Voluntary act means an act performed
consciously as a result of effort or determination. Culpable
mental state means (1) intentionally or with intent; (2)
knowingly or willfully; (3) recklessly; or (4) with criminal
negligence. Each criminal offense has a mental state that
must be proved beyond a reasonable doubt at trial. The
mental states are listed below.
A person acts “intentionally” or “with
intent” when his conscious objective is to cause
the specific result prescribed by the statute
defining the offense. It is immaterial whether
or not the result actually occurred.

67a
Appendix I
A person acts “knowingly” or “willfully”
with respect to conduct or to a circumstance
described by a statute defining an offense when
he is aware that his conduct is of such nature
or that such circumstance exists. A person
acts “knowingly or “willfully” with respect to
a result of his conduct when he is aware that
his conduct is practically certain to cause the
result.
A person acts “recklessly” when he consciously
disregards a substantial and unjustified risk
that a result will occur or that a circumstance
exists.
A person acts “with criminal negligence”
when, through a gross deviation from the
standard of care that a reasonable person would
exercise, he fails to perceive a substantial and
unjustified risk that a result will occur or that
a circumstance exists.
II.	DECLARATIONS BY DEFENDANT
a. I acknowledge that I am the Defendant in
this case and that my true name is as stated
above.
b. I am 19 years old.
c. The highest level of education I completed
is GED.

68a
Appendix I
d. At this time, I am not under the influence of
any drugs, intoxicants, medications, or have
any mental condition that interferes with
my ability to understand the advisement of
rights and my plea of guilty.
e. I read, speak, and understand the English
language: /s/
OR this
document has been translated to me by an
interpreter, in
, a language
that I understand.
.
f. I understand the nature of the charge(s)
against me. I acknowledge that I have
read and understand the elements of the
offense(s), including the culpable mental
state, and the penalty for the offense(s). I
am entering a plea of guilty to the offense(s).
I understand that the prosecution would
have to prove each element of the offense(s)
beyond a reasonable doubt before I could be
convicted of the offense(s) in a trial.
g. I am entering my plea of guilty freely and
voluntarily and not as a result of coercion or
undue influence on the part of anyone. There
have been no threats, force, or promises
made to me to cause me to enter this plea.
h. I understand that the Court will not be bound
by any representations made to me by anyone
concerning the penalty to be imposed or the
granting or denial of probation, unless such

69a
Appendix I
representations are included in a formal
plea agreement placed on the record and
approved by the Court.
i. I acknowledge that there is a factual basis
for this plea. If the plea is a result of a
plea agreement, I waive the establishment
of a factual basis for the charge, as I am
pleading guilty to take advantage of the
plea agreement.
j. I have signed this document and I thoroughly
understand its contents.
k. I understand that if I am ever sentenced to
prison following a plea of guilty to a felony
that occurred on or after July 1, 1993, I
will be ordered to serve A MANDATORY
PAROLE period. This parole period is IN
ADDITION TO AND SERVED AFTER any
sentence to the Department of Corrections
that I may receive from the judge and is in
addition to any sentence imposed as part of
the plea agreement I am entering into with
the District Attorney. I understand that if
there is a plea agreement in my case that
involves an upper limit on the possible prison
sentence or a stipulated prison sentence, the
mandatory parole period will be imposed IN
ADDITION TO AND SERVED AFTER
any prison sentence imposed pursuant to
the agreement. I understand that if I ever
violate my parole, I can be sent back to
prison, and that prison time imposed after

70a
Appendix I
I am placed on parole is separate from any
sentence agreements I have made with the
prosecution at this time.
l. I understand that if I am not a citizen of
the United States and I plead guilty or
nolo contendere (“no contest”) to a crime,
my plea may result in deportation and/or
exclusion from the United States or denial
of naturalization in the United States.
m. I understand that if the Court accepts my
guilty plea to a felony, I will stand convicted
of a felony. I understand that this felony
conviction may be used against me in
any future proceeding under the habitual
criminal laws. I also understand that my
felony conviction may be used against me in
a future proceeding to attack my credibility.
If l have entered into a Stipulation of a
Deferred Sentence and I have not yet
completed the terms of that agreement, my
guilty plea may be used against me in any
future proceeding as stated above.
n. If I am entering into a stipulated prison
sentence in this case, I understand that I
am giving up my right to have the Court
reconsider my sentence as allowed by
Colorado law and the Rules of Criminal
Procedure.
Signed:
(Signature of Defendant)

71a
Appendix I
o. I understand if the judge sentences me to
prison, the term of incarceration shall be
from the minimum in the presumptive range
to twice the maximum in the presumptive
range if any of the following circumstances
apply: (1) I was on bond in another case that
resulted in a conviction of a felony crime; (2)
I was on bond after having pled guilty to a
lesser offense when the original charge was
a felony; or (3) I was on a felony deferred
judgment and sentence.
p. I understand if the judge sentences me to
prison, the term of incarceration shall be
from the midpoint of the presumptive range
to twice the maximum in the presumptive
range if any of the following circumstances
apply: (1) The crime to which I am entering
a guilty plea is a crime of violence; (2) I
was on parole for a felony crime; (3) I was
on probation or on bond while awaiting
sentencing following revocation of felony
probation; (4) I was an escapee from a
previously imposed felony sentence.
q. I understand if the judge sentences me to
probation, I could be required to serve up
to ninety days’ jail for each felony (sixty
days for each misdemeanor) as a condition
of probation or that I could be required
to serve up to two years’ jail on work or
education release for each count.

72a
Appendix I
r. By initialing in the space below, I admit
there is proof beyond a reasonable doubt
that when I committed the crime to which
I am pleading guilty:
KCB I was on a felony deferred sentence.
I was on bond in another case that
resulted in a conviction of a felony.
I was on probation for a felony crime.
I was on parole for a felony crime.
Other:
s. I understand that by pleading guilty and
giving up my right to have a trial, I give
up the right to have a jury determine,
beyond a reasonable doubt, if there are
aggravating facts or circumstances in my
case. I specifically agree that a judge and
not a jury can determine the existence of
aggravating facts in my case that could be
used by a judge to impose a sentence to
prison that is greater than the presumptive
prison sentence range for the offense(s)
included within this plea agreement.
t. If I have specifically agreed to a sentence to
imprisonment for a term or range of years
that is greater than the presumptive range,

73a
Appendix I
I agree to allow a judge to decide if there are
aggravating facts to support that sentence,
including but not limited to my status on
felony deferred sentence, felony bond,
felony probation or parole, as well as any
other fact the judge may choose to consider
in determining if there are extraordinary
aggravating circumstances in my case.
III. STATEMENT OF RIGHTS WAIVED
a. I do not have to make any statement
about this case and I understand that any
statement I make may be used against me.
b. Any plea that I enter must be voluntary and
not the result of undue influence or coercion
on the part of anyone.
c. I have the right to have the court set bail and
I can post that bail if bail can be granted for
my offense.
d. In certain situations, I have the right to
have a preliminary hearing to determine
if probable cause exists to believe that I
committed a crime.
e. I have the right to enter a plea of not guilty
and have a speedy and public trial in this
case either to the Court or to a jury

74a
Appendix I
f. I have the right to be represented by an
attorney at all critical stages through trial
and for any appeal of right.
g. If I do not have the means to hire an attorney,
I can ask the Court to appoint one for me
without cost to me, and one will be appointed
h. I am presumed innocent of the charges
pending against me, and the presumption of
innocence will remain with me throughout
the trial. The prosecution must present
evidence that proves each and every element
of the charge(s) beyond a reasonable doubt to
find me guilty.
i. At the trial, I have the right to confront the
witnesses called to testify against me, including
the right to cross-examine those witnesses.
j. I have the right to present evidence in
my own defense at the trial and to compel
the attendance of witnesses by subpoenas
issued by the Court.
k. I have the right to remain silent at the trial
or testify in my defense as I choose. If I
choose to remain silent, my silence cannot
be used against me.
l. After the trial is over, I have the right
to appeal to a higher court to review the
judgments of the trial court.

75a
Appendix I
IV. I understand that the offense(s) to which I will
plead guilty have the following possible fines, prison
penalties, and periods of mandatory parole:
FELONY OFFENSES
Class

PRESUMPTIVE RANGE
Minimum

Maximum

8 YEARS
$5000 FINE

24 YEARS
$1,000,000 FINE

EXCEPTIONAL CIRCUMSTANCES
Minimum

Maximum

4 years

48 YEARS
PAROLE

F2

Mandatory Parole
5 YEARS
MANDATORY AGGRAVATION
Midpoint of Presumptive Range
16 YEARS
Class

PRESUMPTIVE RANGE
Minimum

Maximum

76a
Appendix I
4 YEARS
$3000 FINE

16 YEARS
$750,000 FINE

EXCEPTIONAL CIRCUMSTANCES
Minimum

Maximum

2 years

32 YEARS
PAROLE

F3ER

Mandatory Parole
5 YEARS
MANDATORY AGGRAVATION
Midpoint of Presumptive Range
10 YEARS
Class

F3

PRESUMPTIVE RANGE
Minimum

Maximum

4 YEARS
$3000 FINE

12 YEARS
$750,000 FINE

EXCEPTIONAL CIRCUMSTANCES
Minimum

Maximum

2 YEARS

24 YEARS

77a
Appendix I
PAROLE
Mandatory Parole
F3

5 YEARS
MANDATORY AGGRAVATION
Midpoint of Presumptive Range
8 YEARS

Class

PRESUMPTIVE RANGE
Minimum

Maximum

2 YEARS
$2000 FINE

8 YEARS
$500,000 FINE

EXCEPTIONAL CIRCUMSTANCES

F4ER

Minimum

Maximum

1 YEAR

16 YEARS
PAROLE

Mandatory Parole
3 YEARS
MANDATORY AGGRAVATION
Midpoint of Presumptive Range
5 YEARS

78a
Appendix I
Class

PRESUMPTIVE RANGE
Minimum

Maximum

2 YEARS
$2000 FINE

6 YEARS
$500,000 FINE

EXCEPTIONAL CIRCUMSTANCES
Minimum

Maximum

1 YEAR

12 YEARS
PAROLE

F4

Mandatory Parole
3 YEARS
MANDATORY AGGRAVATION
Midpoint of Presumptive Range
4 YEARS
Class

F5ER

PRESUMPTIVE RANGE
Minimum

Maximum

1 YEAR
$1000 FINE

4 YEARS
$100,000 FINE

EXCEPTIONAL CIRCUMSTANCES
Minimum

Maximum

6 MONTHS

8 YEARS

79a
Appendix I
PAROLE
Mandatory Parole
F5ER

2 YEARS
MANDATORY AGGRAVATION
Midpoint of Presumptive Range
2.5 YEARS (30 MONTHS)

Class

PRESUMPTIVE RANGE
Minimum

Maximum

1 YEAR
$1000 FINE

3 YEARS
$100,000 FINE

EXCEPTIONAL CIRCUMSTANCES

X

F5

Minimum

Maximum

6 MONTHS

6 YEARS
PAROLE

Mandatory Parole
2 YEARS
MANDATORY AGGRAVATION
Midpoint of Presumptive Range
2 YEARS

80a
Appendix I
Class

PRESUMPTIVE RANGE
Minimum

Maximum

1 YEAR
$1000 FINE

2 YEARS
$100,000 FINE

EXCEPTIONAL CIRCUMSTANCES
Minimum

Maximum

6 MONTHS

4 YEARS
PAROLE

F6ER

Mandatory Parole
1 YEAR
MANDATORY AGGRAVATION
Midpoint of Presumptive Range
1.5 YEARS (18 MONTHS)
Class

F6

PRESUMPTIVE RANGE
Minimum

Maximum

1 YEAR
$1000 FINE

18 MONTHS
$100,000 FINE

EXCEPTIONAL CIRCUMSTANCES
Minimum

Maximum

6 MONTHS

3 YEARS

81a
Appendix I
PAROLE
Mandatory Parole
F6

1 YEAR
MANDATORY AGGRAVATION
Midpoint of Presumptive Range
15 MONTHS

MISDEMEANOR OFFENSES
PRESUMPTIVE RANGE
Class Minimum
Maximum
M1ER 6 MONTHS
2 YEARS
$500 FINE
$5000 FINE
M1
6 MONTHS
18 MONTHS
$500 FINE
$5000 FINE
M2
3 MONTHS
12 MONTHS
$250 FINE
$1000 FINE
M3
$50 FINE
6 MONTHS
$750 FINE
V. I acknowledge that I have read and understand the
plea agreement stated in Section I and the advisement
of rights in Section III. I understand that by entering
my plea of guilty I am waiving and giving up all the
rights set forth in this document. I also acknowledge
that I have read and understand the declarations in
Section II and those declarations are true and correct.

82a
Appendix I
Regarding the Attorney Certificate below, I waive
any right to attorney-client confidentiality I have with
respect to the statements made by my attorney in that
section of this agreement.
X /s/
		
DEFENDANT’S SIGNATURE			

6/18/10
DATE

ATTORNEY CERTIFICATE TO THE COURT
As attorney for the above Defendant, I approve this
plea agreement and certify to the Court the following:
a.

I have discussed the facts and law applicable
to this matter with the Defendant including
the necessary culpable mental state, possible
defense(s), and potential penalties.

b.

I have reviewed the contents of this plea
agreement with the Defendant, including the
sections enumerating the rights contained in
Rules 5(a)(2) and 1 l(b) of the Colorado Rules of
Criminal Procedure. To the best of my knowledge
and belief, the statements and declarations made
by the Defendant in Section 1 of this document
are in all respects accurate and true.

c.

The Defendant appears to be mentally competent
and exhibits no physical or mental condition
that would affect his/her understanding of
court proceedings or his/her ability to make an
informed decision.

83a
Appendix I
d.

It is my professional opinion that the Defendant
is entering into this plea agreement freely and
voluntarily and with a full understanding of his/
her legal rights, the legal and factual issues of
his/her case, and the consequences of his/her
decision. I have informed the defendant that he/
she must ultimately make his/her own decision
to accept or reject this plea agreement.

X /s/
		
ATTORNEY’S SIGNATURE			

6/18/10
DATE

84a
Appendix to
J the COUNTY
Appendix j — MOTION
COURT, BOULDER COUNTY, COLORADO,
filed June 17, 2010
COUNTY COURT, BOULDER COUNTY,
COLORADO
Court Address: Boulder County Justice Center
1777 Sixth St
Boulder, Colorado 80302
Court Phone: (303) 441-3750
Case No: 10CR760
Division: 7
PEOPLE OF THE STATE OF COLORADO,
vs.
KYLE CHANCE BROOKS,
Defendant.
MOTION TO AMEND CRIMINAL COMPLAINT
The People, through District Attorney Stanley L.
Garnett, respectfully move this Honorable Court to amend
the Criminal Complaint filed herein to add Count 2 as
shown in the attached amendment.
WHEREFORE, your Petitioner prays the Court for
an Order to amend the Criminal Complaint.

85a
Appendix J
Respectfully submitted, By:
		
/s/
STANLEY L. GARNETT		 Anne Marie Pignatiello Reg. #31178
DISTRICT ATTORNEY		 Deputy District Attorney
		 June 17, 2010
IT IS SO ORDERED. Done this 18th day of June, 2010.
/s/				
Judge

86a
Appendix k — Appendix
MOTION K
TO the COUNTY
COURT, BOULDER COUNTY, COLORADO,
filed June 17, 2010
COUNTY COURT, BOULDER COUNTY,
COLORADO
Court Address: Boulder County Justice Center
1777 Sixth St
Boulder, Colorado 80302
Court Phone: (303) 441-3750
Case No: 10CR760
Division: 7
PEOPLE OF THE STATE OF COLORADO
vs.
KYLE CHANCE BROOKS,
Defendant.
MOTION TO DISMISS COUNTS
The People, through District Attorney Stanley L.
Garnett, respectfully move and petition this Honorable
Court to dismiss Count 1.
AND AS GROUNDS and reasons therefore, show
unto the Court that the Defendant will plead guilty to
Count 2.

87a
Appendix K
Respectfully submitted, By:
		
/s/
STANLEY L. GARNETT		 Anne Marie Pignatiello Reg. #31178
DISTRICT ATTORNEY		 Deputy District Attorney
		 June 17, 2010
IT IS SO ORDERED. Done this 18th day of June, 2010.
/s/				
Judge

88a
Appendix
L
APPENDIX L —
AMENDED
CRIMINAL
INFORMATION, DATED JUNE 17, 2010

People v. KYLE CHANCE BROOKS

Case No.:
10CR760

Stanley L. Garnett, District Attorney for the Twentieth
Judicial District, of the State of Colorado, in the name
and by the authority of the People of the State of Colorado,
informs the court of the following offenses committed,
or triable, in the County of Boulder.
COUNT 2- THEFT FROM THE PERSON (F5)
That on or about April 17, 2010 in, or triable in, the
County of Boulder, State of Colorado KYLE CHANCE
BROOKS unlawfully, feloniously, and knowingly took
a thing of value, namely: a purse, from the person
of Whitney Sasha Weis; in violation of section 18-4401(1),(5), C.R.S.
All offenses against the peace and dignity of the People
of the State of Colorado.
Stanley L. Garnett
District Attorney
/s/				

89a
M CRIMINAL
APPENDIX M Appendix
— ORIGINAL
INFORMATION, DATED APRIL 17, 2010

People v. KYLE CHANCE BROOKS

Case No.:
10CR760

Stanley L. Garnett, District Attorney for the Twentieth
Judicial District, of the State of Colorado, in the name and
by the authority of the People of the State of Colorado,
informs the court of the following offenses committed, or
triable, in the County of Boulder.
COUNT 1- ROBBERY (F4)
That on or about April 17, 2010 in, or triable in, the County
of Boulder, State of Colorado KYLE CHANCE BROOKS
unlawfully, feloniously, and knowingly took a thing of
value, namely: a purse, from the person or presence
of Whitney Sasha Weis by the use of force, threats or
intimidation; in violation of section 18-4-301(1), C.R.S.
All offenses against the peace and dignity of the People
of the State of Colorado.

Stanley L. Garnett
District Attorney
By /s/
BOULDER POLICE DEPT
Deputy District Attorney
10-4773

